No. 19In the

Supreme Court of the United States
RICHARD LEWIS KATZIN, ESTATE OF
ANNETTE KATZIN, ESTATE OF MARY BETH
KATZIN-SIMON, ROSEMARIE KJELDSEN,
Petitioners,
v.
UNITED STATES OF AMERICA
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

Roberto E. Berríos-Falcón
Berríos Falcón, LLC
Capital Center Building
South Tower, Suite 901
239 Arterial Hostos Avenue
San Juan, PR 00918
(787) 274-8600
rblawpr@yahoo.com
Counsel for Petitioners
290446

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
A divided panel of the Federal Circuit reversed the
trial court’s decision that a taking resulted from the
Government’s communications to prospective purchasers
that the United States owns title to a portion of the
Petitioners’ land—making the land unsalable. As a result,
Petitioners lost a $4 million sale in 2006, and other
prospective purchasers have refused to make offers to buy
the property. The Federal Circuit’s announced per se rule
that the Government’s erroneous claim of title cannot be
a taking even if it makes the land unsalable and deprives
the land of all value is contrary to the precedents of this
Court, and guts the Fifth Amendment of all meaning. As
Judge Newman’s states in her dissent:
Despite the Katzins’ registered deed, the
United States asserts that the government,
not the Katzins, owns the entirety of the 10.01
acre peninsula, as well as the government’s
undisputed ownership of a 2.25 acre gun mount
site at an unknown location. The government
has so advised potential purchasers and has
eliminated all possibility of sale of the land.
That is what this case is about, for the right to
sell one’s property is a fundamental tenet of
ownership. See App., infra, 25a.
The questions presented are as follows:
1. Whether the Government can claim title to privately
owned land and actively work to make that property
unsaleable, without triggering the Fifth Amendment’s
obligation to pay just compensation for a taking.

ii
2. Whether after concluding that the trial court
applied the erroneous legal taking standard the Federal
Circuit should have remanded the case back to the trial
court to apply the correct standard.

iii
PARTIES TO THE PROCEEDINGS
Petitioners, Richard Lewis Katzin, the Estate of
Annette Katzin, the Estate of Mary Beth Katzin-Simon,
and Rosemarie Kjeldsen, were the appellees in the Federal
Circuit Court of Appeals.
The Appellant in the Federal Circuit Court of Appeals
was the United States of America.

iv
RELATED CASES
Katzin, et al v. United States, No. 1:12-cv-00384-CFL,
U.S. Court of Federal Claims. Judgment entered July 18,
2016.
Katzin, et al v. United States, No. 2016-2636, U.S.
Court of Appeals for the Federal Circuit. Judgment
entered November 19, 2018.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 3
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
F OR T H E F EDER A L C I R C U I T,
FILED NOVEMBER 19, 2018  . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION AND ORDER OF
T H E U N I T ED S TAT E S C OU RT OF
FEDERAL CLAIMS, FILED JULY 15, 2016 . . . 38a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
FILED MARCH 26, 2019 . . . . . . . . . . . . . . . . . . . . 127a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Aulston v. United States,
11 Cl. Ct. 58 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Bourgeois v. United States,
545 F.2d 727 (Ct. Cl. 1976). . . . . . . . . . . . . . . . . . .  10, 11
Central Pines v. United States,
107 Fed. Cl. 310 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . 11
Chianese v. Culley,
397 F. Supp. 1344 (S.D. Fla. 1975) . . . . . . . . . . . . . . . . 7
Dwen v. United States,
62 Fed. Cl. 76 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Hodel v. Irving,
481 U.S. 704 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Kirby Forest Indus., Inc. v. United States,
467 U.S. 1 (1984)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Lost Tree Village Corp. v. United States,
787 F.3d 1111 (Fed. Cir. 2015) . . . . . . . . . . . . . . . . . . . 5
Lucas v. S.C. Coastal Council,
505 U.S. 1003, 112 S. Ct. 2886,
120 L. Ed. 2d 798 (1992) . . . . . . . . . . . . . . . . . . 4, 5, 6, 7

viii
Cited Authorities
Page
Magnivision, Inc. v. Bonneau Co.,
115 F.3d 956 (Fed. Cir. 1997) . . . . . . . . . . . . . . . . . . . 12
Mannatt v. United States,
48 Fed. Cl. 148 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . 11
Oak Forest v. United States,
23 Cl. Ct. 90 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Pullman-Standard v. Swint,
456 U.S. 273, 291-92 (1982) . . . . . . . . . . . . . . . . . . . . . 12
Richmond, Fredericksburg and Potomac R.R. v.
United States,
27 Fed. Cl. 275 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . 11
Teva Pharmecuticals United States, Inc. v.
Sandoz, Inc.,
135 S. Ct. 831 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Whitney Benefits, Inc. v. United States,
926 F.2d 1169 (Fed. Cir. 1991) . . . . . . . . . . . . . . . . . . . 5
Yaist v. United States,
656 F.2d 616 (Ct. Cl. 1981)  . . . . . . . . . . . . . . . . . . . 9, 11
Yuba Goldfields, Inc. v. United States,
723 F.2d 884 (Fed. Cir. 1983) . . . . . . . . . . . . . . . . . . . . 9
Yuba Nat. Res., Inc. v. United States,
821 F.2d 638 (Fed. Cir. 1987) . . . . . . . . . . . . . . . . . 9, 11

ix
Cited Authorities
Page
Statutes
28 U.S.C. 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. Civ. P. 52(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
U.S. Const. Amend. V  . . . . . . . . . . . . . . . . . . . . . . . 1, 4, 11
Treatises
1 E. Coke, Institutes, ch. 1, § 1 (1st Am. ed. 1812) . . . . . 7

1
Petitioners, Richard Lewis Katzin, the Estate of
Annette Katzin, the Estate of Mary Beth Katzin-Simon,
and Rosemarie Kjeldsen, file this petition for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Federal Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals for
the Federal Circuit (App., infra, 1a) is reported at 918 F.3d
1350 (2018). The opinion and order of the United States
Court of Federal Claims (App., infra, 38a) is published in
127 Fed. Cl. 440 (2016).
JURISDICTION
The judgment of the United States Court of Appeals
for the Federal Circuit was entered on November 19, 2018.
A petition for rehearing and rehearing en banc was denied
on March 26, 2019 (App., infra, 137a). An application for
an extension of time within which to file this petition for a
writ of certiorari in this case was presented to the Chief
Justice, who on June 21, 2019, extended the time to and
including August 23, 2019. The jurisdiction of this Court
is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the U.S. Constitution, U.S.
Const. Amend. V, provides:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval

2
forces, or in the militia, when in actual service
in time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.
STATEMENT
The Petitioners (collectively referred to as the
“Katzins”) own a 68.8-acre, unimproved parcel of land
on the island of Culebra, east of Puerto Rico. See App.,
infra, 104a. The land is suitable for a boutique hotel and,
in 2006 a group of investors contracted to purchase it for
$4 million. Ap, infra, 83a. But before the sale closed, the
investors’ lawyer, Claudia Motta, contacted the U.S. Fish
and Wildlife Service (“FWS”) to ask whether the United
States held title to any of the land covered by the contract.
In response, the FWS official, Mr. Beasley, informed
her, through several different communications, complete
with maps and diagrams, that the Government claimed
both a parcel known as the gun mount and the 10-acre
peninsula on which the potential buyers planned to build
a hotel. Motta then informed the Katzins by letter that,
due to the Government’s claim of title, the investors would
not complete the sale. See App., infra, 89a. Several other
purchasers were interested enough to travel to Culebra
to inspect the property but, due to the Government’s
continued claim that it owned a portion of the Katzins’
property, no other offers were received. See App., infra,
89a. At last, the Katzins’ real estate broker informed them
that the land was unmarketable and quit. As of today, the

3
Government still asserts its claim of title. See App., infra,
116a-117a.
As Judge Newman states in her dissent, “[t]he Court of
Federal Claims found that the ‘evidence of unsalability has
not been contravened by the government.’ My colleagues
assign no error to that finding.” See App., infra, 33a.
In June 2012, the Katzins filed suit for the taking of
their land and the $4 million contract and, following a
nine-day trial, the Court of Federal Claims ruled that
the Government’s actions had deprived the Katzins of the
right to sell the 10.1-acre peninsula, which they owned,
and that this was a Fifth Amendment taking. See App.,
infra, 28a, 120a. The trial court awarded the Katzins
$610,962.97 in just compensation, equal to the value of
the land taken. See App., infra, 123a.
The Government appealed, claiming that the trial
court had erred in finding that the Katzins, and not
the Government, owned the 10.1 acres peninsula, and
the Government’s actions did not constitute a taking of
the Katzins’ land. Without addressing the title issue, a
divided panel of the Federal Circuit reversed, holding
that the Government’s claim of title could not constitute
a taking, even if it made the Katzins’ land unmarketable
and valueless. See App., infra, 20a, 24a.
REASONS FOR GRANTING THE PETITION
T h is case present s questions of exceptiona l
constitutional importance that warrant this Court’s
review. The Federal Circuit held that the Government’s
actions did not constitute a physical taking that would
entitle the Katzins’ just compensation. In doing so, it

4
announced a per se rule that the Government’s erroneous
claim of title cannot be a taking even if it makes the land
unsaleable and deprives the land of all value, ignoring its
own and this Court’s precedents.1
If allowed to stand, the Federal Circuit’s ruling would
have a devastating effect for property owners because
an erroneous claim of title to private property by the
Government would not be considered a taking even if it
makes the land unsaleable and deprives the land of all
value.
1. The Federal Circuit’s newly created rule that
property has not been taken when the Government asserts
ownership of that property sets a dangerous precedent. The
Government’s assertions of title to the Katzins’ purchaser
caused him to not proceed with the purchase. The “ability
to sell, assign, transfer, or exclude” is a “property right”
within the meaning of the Fifth Amendment. The trial
court concluded that the evidence in the record showed
that “after Mr. Beasley sent the facsimile of June 22, 2006,
the plaintiffs lost a prospective buyer in Mr. Klaber, and
have since been unable to sell the land.” See App., infra,
119a. The evidence of unsalabilty was not contravened by
the Government. Id. However, without a finding of clear
error, the Federal Circuit concluded that the actions of the
Government “were a mere sharing of information about its
claim of ownership to real property with a third party…”
See App., infra, 20a. 2
1. Lucas v. S.C. Coastal Council, 505 U.S. 1003 (1992).
2. Fed. Civ. P. 52(a); Teva Pharmecuticals United States,
Inc. v. Sandoz, Inc., 135 S. Ct. 831 (2015).

5
The Federal Circuit then concluded that the actions
of the Government did not “physically occupy some
part of Plaintiffs’ property, require Plaintiffs to suffer
a permanent physical invasion, directly appropriate
Plaintiffs’ property, effect the functional equivalent of
an ouster of Plaintiffs’ possession, did not deprive the
Katzins of all economically beneficial use of Plaintiffs’
property. Indeed, the Beasley fax did nothing more than
disseminate information about the government’s property
claims to Mr. Klaber and other potential buyers; it did
not actually change any rights in any part of Parcel 4.
At most, the Beasley fax disseminated information about
the government’s claims, and the market incorporated
that information into its valuation of the property. This
lowering of the market value is a far cry from a total
deprivation of all economically beneficial use of Parcel
4.” See App., infra, 20a-21a. 3 However, precedent of the
Federal Circuit and this Court make no exception for
takings resulting from the Government’s unfounded
claims of title to private land that make the property
unsaleable and valueless.
In Lucas v. South Carolina Coastal Council,4 this
Court announced the rule that Government action that
makes land valueless constitutes a taking. The Federal
Circuit has several times ruled the same. 5 Neither
3. Id.
4. Lucas v. S.C. Coastal Council, 505 U.S. 1003 (1992).
5. Lost Tree Village Corp. v. United States, 787 F.3d 1111,
1113 (Fed. Cir. 2015) (“We affirm that a Lucas taking occurred
because the government’s permit denial eliminated all value
stemming from Plat 57’s possible economic uses.”); Whitney
Benefits, Inc. v. United States, 926 F.2d 1169, 1177 (Fed. Cir.
1991) (“The evidence having shown the total destruction of all

6
this Court nor the Federal Circuit has ever ruled that
Government claims of title to the land, when proved false,
exempt the Government from the Lucas per se rule that
Government action which renders the property valueless
is a taking for which just compensation is due. As the
dissent states:
The panel major ity . . . holds that the
government’s “claims of ownership” were “not
a physical taking,” and that there is no judicial
redress although the government’s actions to
block sale have removed all economic value
from the property. Maj. Op. at 20-21. It is not
disputed that the Katzins have been unable to
sell the property. The Court of Federal Claims
found that the “evidence of unsalability has
not been contravened by the government,” and
that the “evidence in the record shows that
after Mr. Beasley sent the facsimile of June
22, 2006, the plaintiffs lost a prospective buyer
in Mr. Klaber, and have since been unable to
sell the land.” CFC Op. at 482. As the majority
recognizes, “several potential buyers refused to
buy the property” in view of the government’s
ownership claim. Maj. Op. at 9. See App., infra,
33a.
This Court has also ruled that the taking of one stick
in the bundle of property rights can be a taking where that
stick is essential to the owner’s enjoyment of the property.6
economically viable use, the conclusion is inescapable that SMCRA
constituted a taking of the Whitney coal property.”).
6. Hodel v. Irving, 481 U.S. 704, 716-17 (1987) (holding
“complete abolition of both the descent and devise of a particular
class of property may be a taking”).

7
As Judge Newman’s dissent points out, the right to sell
property is such an essential stick in the bundle of rights
that deprivation of that right alone constitutes a taking:
The “right to convey hearkens back to the
Statute of Quia Emptores in the year 1290,
and the right to alienate one’s property has
been accepted as an incident of an estate in
fee simple ever since.” Chianese v. Culley, 397
F.Supp. 1344, 1345 (S.D. Fla. 1975). “[F]or what
is the land but the profits thereof[?]” Lucas v.
S.C. Coastal Council, 505 U.S. 1003, 1017, 112
S.Ct. 2886, 120 L.Ed.2d 798 (1992) (quoting 1 E.
Coke, Institutes, ch. 1, § 1 (1st Am. ed. 1812)).
See App., infra, 33a.
Although this Court in Kirby Forest Industries7 did
not reach the issue of whether deprivation of the right to
sell is a taking, as Judge Newman’s dissent states, the
Kirby court recognized that the interference of the right
to dispose of land can be a taking:
The Court expressly left open the question
of “whether abrogation of an owner’s right to
sell real property, combined with a sufficiently
substantial diminution of its utility to the owner,
would give rise to a taking,” id. at 15 n.25, 104
S.Ct. 2187, while recognizing that where there
is “an interference with an owner’s legal right
to dispose of his land” there can be a taking.
Id. at 15. See App., infra, 35a.
7. Kirby Forest Indus., Inc. v. United States, 467 U.S. 1
(1984).

8
In this case the Government has completely abrogated
the Katzins’ ability to sell their land:
The Court of Federal Claims found that the
government wholly frustrated the Katzins’
ability to sell their property. CFC Op. at 482.
My colleagues recognize as much. See Maj. Op.
at 8-9 (“Mr. Beasley replied by faxing several
documents . . . . On June 28, 2006, Ms. Motta
communicated to Plaintiffs that Mr. Klaber
would not buy Parcel 4. Thereafter, several
potential buyers refused to buy the property.”).
See App., infra, 35a-36a.
Notwithstanding, the Federal Circuit held that the
Government has not appropriated a portion of the Katzins’
land, even though the Government continues to claim that
it, and not the Katzins, owns that land. As Judge Newman
further states in her dissent:
The Court of Federal Claims found that
“[t]here is no indication from the record of trial
that, absent court intervention, the government
intends to renounce its claim of ownership to a
part of plaintiffs’ property, or that it has done
so at the time of this writing.” Id. at 481. This
position is not softened by the government
on appeal. The Court of Federal Claims
correctly determined that the government’s
actions constitute a taking of the Katzins’ real
property, based on the government’s assertion
of ownership and the effect on alienation of the
property. See App., infra, 36a.

9
The Federal Circuit’s decision creates an intra-circuit
split because this decision is contrary to existing Federal
Circuit precedent Yuba Natural Resources, Inc. v. United
States, 8 in which it found a taking where “the United
States prohibited Yuba from exercising its mineral rights
by letter dated April 9, 1976, explaining that it thought
that the mineral rights belonged to the United States and
not to Yuba.” 9 There, the Federal Circuit stated:
Government action other than acquisition of
title through formal condemnation proceedings
(eminent domain), occupancy, or physical
invasion may be found to be a taking where
government action has destroyed the owner’s
use and enjoyment of his property thereby
depriving the owner of all or most of his interest
in the property (inverse condemnation).10
The decision also contradicts the Federal Circuit’s
holding in Yaist v. United States,11 finding a taking where
both Yaist and the Government held conflicting deeds to
the land from Olson Realty and, “[b]y letter of June 13,
1972, the National Park Service, in response to a letter
from the plaintiff, told him that the Government had taken
title to the property and that Yaist should look to Olson
8. Yuba Nat. Res., Inc. v. United States, 821 F.2d 638 (Fed.
Cir. 1987); see also Yuba Goldfields, Inc. v. United States, 723 F.2d
884 (Fed. Cir. 1983) (Government’s asserted claim of ownership
to mineral interests that prevented owner from mining rendered
summary judgment in favor of Government legal error).
9. Yuba Nat. Res., 821 F.2d at 641.
10. Id. at 640.
11. Yaist v. United States, 656 F.2d 616 (Ct. Cl. 1981).

10
Realty for a solution.”12 There, as here, the Government
manifested its intent to keep the land it incorrectly
claimed—giving rise to a taking:
In the current case, the Government comparably
expressed its desire to retain the land by filing
its deed with the county records office on April
29, 1971, and by a letter of June 13, 1972, sent
by Philip O. Stewart of the Department of the
Interior, telling Yaist that “by virtue of the April
28 conveyance the United States is the owner
of record of the lands in question.” Moreover,
defendant’s counsel represented to this court
at oral argument that the Government wanted
and still wants this land, and would pay for it
under the condemnation provisions of the Quiet
Title Act.13
The Federal Circuit’s decision also conflicts with its
own holding in Bourgeois v. United States,14 that the
Government’s erroneous claim of title to an island in
Michigan was a taking. There, the Government’s claim
of ownership was “[e]videnced by government posting of
the property as government land and the letter from the
General Counsel’s office of the Department of Agriculture
to plaintiff’s attorney pronouncing the island to be federal
land.”15
12. Id. at 619.
13. Id. at 621.
14. Bourgeois v. United States, 545 F.2d 727 (Ct. Cl. 1976).
15. Id. at 731 n.4.

11
The trial court held that, in the case of a non-possessory
taking, “governmental action can effect a taking when it
prohibits or prevents a landowner from exercising his or
her property rights because of a governmental claim of
ownership of those rights.” See App., infra, 11a, 113a.The
trial court reasoned that the Government “appropriated
plaintiffs’ property rights such that they were not able to
sell the parcel free of the government’s claims,” and that
this was a physical taking requiring just compensation
for the appropriation of the 10.01-acre peninsula. See
App., infra, 11a, 120a. The Federal Circuit erred when it
reversed the trial court’s finding.
Resolution of the issue whether a Government claim
of title to private property, can, under appropriate facts,
be a compensable Fifth Amendment taking is important
because this fact pattern frequently arises in the Court
of Federal Claims.16 As Judge Newman states in her
dissent, “[t]hat is what this case is about, the right to
sell one’s property, for the right to sell one’s property is
a fundamental tenet of ownership.” See App. infra, 25a.
16. Examples, in addition to the Yuba Resources, Yaist,
and Bourgeois cases already discussed, include: Central
Pines v. United States, 107 Fed. Cl. 310 (2010), involving U.S.
ownership claim to plaintiffs’ mineral interests, Richmond,
Fredericksburg and Potomac R.R. v. United States, 27 Fed.
Cl. 275 (1992), involving government claim of rights under
restrictive land covenant, Mannatt v. United States, 48 Fed. Cl.
148 (2000), involving government re-survey changed boundary
between Indian reservation and plaintiffs’ land, Oak Forest v.
United States, 23 Cl. Ct. 90 (1991), involving government claim of
ownership of access road to plaintiffs’ subdivision), Dwen v. United
States, 62 Fed. Cl. 76 (2004), involving Government claimed title
to Plaintiffs’ Spanish land grant, and Aulston v. United States,
11 Cl. Ct. 58 (1986), involving government claimed ownership of
minerals.

12
2. Even if the Federal Circuit’s conclusion that the
trial court used the wrong taking test to determine if the
Government’s claim of ownership of the 10-acre peninsula
constituted a physical taking, it should have remanded for
the trial court to determine whether a taking had occurred
under a regulatory taking analysis.17
As this Court has repeatedly held, “[s]ince the trial
court applied an erroneous standard . . . and erroneous
burdens of proof, the defendants were not called upon to
meet the correct test at trial. They must be given a chance
to do so.”18
Here, the Federal Circuit’s decision emphasized
that its taking holding was limited to a physical—not a
regulatory—taking analysis:
Because the Beasley fax was not a physical
taking, we reverse. As the Dissent correctly
points out, the heart of this dispute is the title to
the gun mount site. However, even if Plaintiffs
were to establish title to the peninsula, because
the Beasley fax was not a physical taking,
Plaintiffs is not entitled to just compensation
under a physical takings theory. See App.,
infra, 24a.
The Federal Circuit’s decision not to remand the case
to the trial court to apply the newly stated rule is a radical
17. Pullman-Standard v. Swint, 456 U.S. 273, 291-92 (1982)
(citations omitted).
18. Magnivision, Inc. v. Bonneau Co., 115 F.3d 956, 961 (Fed.
Cir. 1997) (quoting Pullman-Standard, 456 U.S. at 291-92 (1982)).

13
departure from established precedent. The Federal
Circuit should have remanded the case to the trial court
for further fact-finding in accordance with the opinion.19
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted.
Roberto E. Berríos-Falcón
Berríos Falcón, LLC
Capital Center Building
South Tower, Suite 901
239 Arterial Hostos Avenue
San Juan, PR 00918
(787) 274-8600
rblawpr@yahoo.com
Counsel for Petitioners
August 23, 2019.

19. The Federal Circuit notes that the “parties in this case
have not asked us to analyze this claim under the Penn Central
framework.” See App., infra, 19a. However, this claim was pursued
as a per se taking in the trial court.

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, filed November 19, 2018
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2016-2636
RICHARD LEWIS KATZIN, ESTATE OF
ANNETTE KATZIN, ESTATE OF MARY BETH
KATZIN-SIMON, ROSEMARIE KJELDSEN,
Plaintiffs-Appellees,
v.
UNITED STATES,
Defendant-Appellant.
Appeal from the United States Court of Federal
Claims in No. 1:12-cv-00384-CFL, Judge Charles F.
Lettow.
November 19, 2018, Decided
Before Prost, Chief Judge, Newman and Linn,
Circuit Judges.
Opinion for the court filed by Circuit Judge Linn.
Dissenting opinion filed by Circuit Judge Newman.

2a
Appendix A
Linn, Circuit Judge.
The United States appeals from a final decision after
trial by the Court of Federal Claims (“Claims Court”),
holding that the government effected a physical taking of
a ten-acre peninsula on the island of Culebra in Puerto
Rico, when the U.S. Fish and Wildlife Service (“F&WS”)
faxed its claim of ownership to a gun mount located on
the peninsula to a potential purchaser. Katzin v. United
States, 127 Fed. Cl. 440 (2016) (“Katzin II”); see also
Katzin v. United States, 120 Fed. Cl. 199 (2015) (“Katzin
I”) (denying summary judgment to the United States).
Because the fax was not a physical taking of Appellees’
land, we reverse.
I. Background
A. 	Facts
The Claims Court admirably described the history
of the disputed parcel. Katzin II, 127 Fed. Cl. at 446-57.
We report only that portion of the history relevant to our
decision.
Culebra is the largest in a group of islands just east
of Puerto Rico. Prior to 1898, Culebra belonged to the
Kingdom of Spain. In 1887, Spain initiated a survey
(“1887 Survey”), the resulting map of which is reproduced
below in Figure 1, dividing the property into privately
owned parcels. The peninsula in the eastern section of
Parcel 24 roughly represents the land at issue in this
litigation. Under Spanish law at that time, the “maritime

3a
Appendix A
terrestrial zone” surrounding the island—“the area of
the coasts or seashore . . . that is washed by the sea in its
ebb and flow, where the tide is perceptible, or the highest

tidal waves in stormy weather when the tide is not
perceptible”—was held by the Spanish government in the
public domain. Id. at 446-47.
In 1898, Spain transferred all lands owned by the
Spanish government on Culebra to the United States.
Treaty of Peace Between the United States of Am. and the
Kingdom of Spain, 30 Stat. 1754 (Apr. 11, 1899) (“Treaty
of Paris”). This included the maritime-terrestrial zones.
In 1901, President Roosevelt issued a general order, and
in 1903 a proclamation, that all public lands on Culebra
would be reserved for Naval purposes.

4a
Appendix A
The Treaty of Paris did not affect the privately owned
parcels. In 1903, several of the privately owned parcels,
including Parcels 24 and 25, were combined into a single
tract and registered with the Registry of Property of
Puerto Rico (“Registry”) as Property No. 117 (“Buena
Vista”). On June 28, 1903, the owners of the tract signed
a deed of sale, transferring a 2.25-acre plot to the Navy. It
was registered on June 29, 1903. The Registry describes
the plot as “bounded to the North by [property owned
by] Mr. Antonio Lugo and the sea on a tip of land; to the
East by the sea; and to the South and West by the main
property from which it is segregated.” Katzin II, 127 Fed.
Cl. at 449-50. This description placed the transferred plot
within former Parcel 25 on the 1887 Survey. Id. at 449.
Also on June 29, the same owners and the Navy signed an
“Agreement of Sale,” describing the metes of the property
in the same way, but indicating its location as within “Plot
Number 24, Official Chart of Culebra, U.S.W.I.” Id. at
450. The Navy traces the location of the gun mount to
this Agreement of Sale, and has consistently referred
to the location of the transferred plot as within former
Parcel 24. Id. at 457. The dispute in this case revolves
around the location and ownership of this transferred plot.
Hereinafter, we refer to this uncertainly located plot as
the gun mount site.
After several conveyances, Plaintiffs Dr. and Mrs.
Katzin became owners of an undivided 50 percent interest

5a
Appendix A

in Parcel 4, which roughly corresponds to Parcel 24 on the
1887 Survey, and Plaintiff Rose Marie Kjeldsen Winters
became the owner of the remaining 50 percent. Id.
In 1972, the General Services Administration (“GSA”)
took control of Navy lands on Culebra. GSA transferred
the land to the F&WS, using Navy Map No. 323. See
Figure 2. Navy Map No. 323 showed an overlay of the
1887 Survey with highlights showing Navy ownership
of a coastal strip around the southern and eastern coast
of the island, and a gun mount location on the southern
end of the peninsula. Id. at 463. The F&WS published
notice in the Federal Register that it would prepare a
Draft Environmental Impact Statement on the transfer
of lands from the Navy to the F&WS, as well as a Final
Environmental Impact Statement. Intent to Prepare an
Envt’l Impact Statement on the Proposed Disposition
and Administration of Lands on the Islands of Culebra

6a
Appendix A
and Culebrita, 45 Fed. Reg. 16,358-01 (Fish & Wildlife
Serv. (Mar. 13, 1980)); Availability of Final Envt’l Impact
Statement, 46 Fed. Reg. 50,421-01 (Fish & Wildlife
Serv. (Oct. 13, 1981)); Record of Decision on Proposed
Disposition and Administration of Lands Declared Excess
by U.S. Navy on the Islands of Culebra and Culebrita
in Puerto Rico, 47 Fed. Reg. 11,114-02 (Fish & Wildlife
Serv. (Mar. 15, 1982)). According to the Claims Court,
the Draft and Final Environmental Impact Statements
included a map of the property to be transferred, including
Tracts 1e (the coastal strip) and 1f (the gun mount on the
northeastern side of the peninsula). Katzin II, 127 Fed.
Cl. at 463-64.
In 1985, the F&WS surveyed the eastern coast of
Culebra. The survey labels several points on the boundaries

of the F&WS property and includes labels for Tract 1f and
1e. See Figure 3. The survey plat shows Tract 1f bounded
by points 606, 607, 609, 610, and 611. Id. at 464-65. The
F&WS placed signs at some of the points on the plat that
prohibited entry. See Figure 4. In 2012 and 2013, a F&WS

7a
Appendix A
representative located a marker at point 606, and other
markers were found at points 600, 601, 602, 603, 605, 612,
613, 614, 617, and 619.

In 1987, Edward Borges, the attorney representing
the Katzins’ neighbor Culebra Enterprises Corporation,
wrote to the F&WS seeking resolution of boundary
uncertainties between the maritime-terrestrial zone and
Culebra Enterprises’ land. Specifically, Borges explained
that the boundary lines defined in the 1985 F&WS survey
at some points did not secure all the sensitive wetlands
for the F&WS and in other spots encroached beyond the
high-water mark of the ocean and encroached on land
that Culebra Enterprises claimed as its own. Id. at 465.
Borges proposed that the F&WS take ownership of all the
wetlands, and that Culebra Enterprises take ownership of
all other areas outside the maritime zone. Id. The letter
included an aerial photograph of Culebra, with a tracing

8a
Appendix A
matching the 1985 F&WS Survey, including the numbered
markers defining an enclosed polygon on the peninsula at
the east of former Parcel 24, as seen in Figure 5 below.
In April 1987, Dr. Katzin wrote to the F&WS,
identifying himself as owner or part-owner of land “from
station 616 at the southern end of the refuge north to a
point midway

between stations 614 and 613,” and “an undivided half
interest in the property between that point and Mr.
Mailloux’s property at station 602 to the north.” J. App’x
2936. Dr. Katzin also wrote that “our boundary situation
has many similarities to that of Culebra Enterprises and I
would like to explore with you the possibilities of a similar

9a
Appendix A
solution.” Id. The F&WS replied that they would consider
an exchange of lands to resolve the ambiguity.
Plaintiffs listed Parcel 4 for sale, and on March 23,
2006, William Klaber signed a purchase agreement to buy
it for $4 million. Katzin II, 127 Fed. Cl. at 467. Mr. Klaber
deposited $50,000 in earnest money, and the parties
scheduled a closing for June 30, 2006. The agreement
provided for a return of the deposit if the buyer discovered
that “any fact related to zoning, title and land survey,
current easements, real estate taxes and assessments

or legal access are not as represented.” Id. In June 2006,
Mr. Klaber asked his attorney, Claudia Motta, to find
a way to “get . . . out of the deal” to purchase Parcel 4.
Id. The parties’ communications reveal a concern about
potential government claims on the property. Id. On June
15, 2006, Ms. Matta e-mailed John Beasley, a F&WS
representative, to ask about the F&WS’s claims on Parcel
4. Id. at 468.

10a
Appendix A
On June 22, Mr. Beasley replied by faxing several
documents (“Beasley fax”), including a tracing of the
1887 Survey map with the F&WS parcel numbers added,
including Tract 1e, which Mr. Beasley described as “the
maritime zone,” and Tract 1f, shown as a square north of
the peninsula, and described as “an old gun mount site
purchased by the Navy in 1903 from Escolastico Mulero.”
J. App’x at 3115, 3117; see Figure 6.
On June 28, 2006, Ms. Motta communicated to
Plaintiffs that Mr. Klaber would not buy Parcel 4.
Thereafter, several potential buyers refused to buy the
property.
B. 	Procedural History
Plaintiffs brought suit in the Claims Court against
the United States, alleging that the Beasley fax effected
a physical taking of the 10.01-acre peninsula in Parcel
24. Katzin II, 127 Fed. Cl. at 445. After trial, the Claims
Court held that Plaintiffs’ takings claim was not beyond
the statute of limitations because it did not accrue at any
time prior to the Beasley fax in 2006. This was so, the
Claims Court held, because even though Plaintiffs or
their predecessors in interest “knew or had reason to
know of the government’s claims to the maritime zone and
the former gun mount site prior to the contract with Mr.
Klaber,” the “disputes over ownership rights prior to June
2006 were never refined to the point of interfering with
plaintiffs’ use and enjoyment.” Id. at 473-74. The Claims
Court explained that the “only evidence” of government
interference was the placement of survey markers and

11a
Appendix A
wildlife refuge signs on the property, but the court found
that those markers and signs “could have related to the
maritime zone, which plaintiffs concede the government
controls,” and therefore did not interfere with Plaintiffs’
property. Id. at 474 n.17. Separately, the Claims Court also
held that Plaintiffs’ title to Parcel 4 included title to the
10.01-acre peninsula, and that the government’s 2.25-acre
gun mount was not located on the peninsula. Id. at 476-79.
Finally, the Claims Court concluded that the Beasley
fax effected a non-possessory physical taking of the entire
10.01-acre peninsula.1 The Claims Court understood that,
in the case of a non-possessory taking, “governmental
action can effect a taking when it prohibits or prevents
a landowner from exercising his or her property rights
because of a governmental claim of ownership of those
rights.” Id. at 479. The Claims Court reasoned that the
government “appropriated plaintiffs’ property rights
such that they were not able to sell the parcel free of the
government’s claims,” and that this was a physical taking
requiring just compensation for the appropriation of the
10.01-acre peninsula. Id. at 482. The Claims Court set
the value of all of Parcel 4 at $4 million, based on Mr.
Klaber’s contract value, and awarded a fraction of that
1. The Claims Court explained that the government’s actions
with respect to the gun mount site implicated the entire 10.01-acre
peninsula because the inconsistency of the government’s position
of where the gun mount was located on the peninsula required the
court to “accept—as the plaintiffs and any prudent buyer would
have to do—that the relevant governmental action is a claim of
ownership, and thereby a permanent taking, of the entire 10.01acre peninsula.” Katzin II, 127 Fed. Cl. at 481.

12a
Appendix A
value corresponding to the acreage of the peninsula, to
arrive at a reasonable compensation amount of $610,962.97
plus interest. Id. at 483.
II. Discussion
A. Standard of Review
We review a final decision of the Claims Court by
examining legal conclusions de novo and factual findings
for clear error. Bass Enters. Prod. Co. v. United States,
381 F.3d 1360, 1365 (Fed. Cir. 2004). Whether a Fifth
Amendment taking has occurred is a question of law,
based on factual determinations. Id.
A claim under the Tucker Act, 28 U.S.C. § 1491, in
the Claims Court must be brought “within six years after
such claim first accrues.” 28 U.S.C. § 2501. We review
whether a claim is barred by the statute of limitations de
novo, and, as usual, review underlying fact-findings for
clear error. Brown v. United States, 195 F.3d 1334, 1337
(Fed. Cir. 1999).
A physical takings claim accrues when the scope
of what is taken is fixed, see Samish Indian Nation v.
United States, 419 F.3d 1355, 1369 (Fed. Cir. 2005)(quoting
Martinez v, United States, 333 F.3d 1295, 1303 (Fed. Cir.
2003) (en banc)) (stating that a claim under § 2501 accrues
“when all events have occurred to fix the Government’s
alleged liability, entitling the claimant to demand payment
and sue here for his money”), and the plaintiff knew or
should have known of the acts that fixed the government’s

13a
Appendix A
alleged liability, Hopland Band of Porno Indians v.
United States, 855 F.2d 1573, 1577 (Fed. Cir. 1988). The
Tucker Act statute of limitations is jurisdictional; we must
therefore determine whether Plaintiffs’ claims are timely
before proceeding to the merits of the takings claim. John
R. Sand & Gravel Co. v. United States, 552 U.S. 130,
136, 128 S. Ct. 750, 169 L. Ed. 2d 591 (2008). Because the
Tucker Act’s statute of limitations is jurisdictional, the
plaintiffs bear the burden of proving that their claims are
not time-barred. Mildenberger v. United States, 643 F.3d
938, 944-45 (Fed. Cir. 2011); Alder Terrace, Inc. v. United
States, 161 F.3d 1372, 1377 (Fed. Cir. 1998).
B. 	Merits
This case presents three distinct issues: (1) whether
the Claims Court erred in holding that Plaintiffs’ takings
claim was not jurisdictionally time-barred; (2) whether
the Claims Court erred in holding that the communication
from the F&WS to Mr. Klaber’s representative was a
physical taking of the 10.01-acre peninsula; and (3) whether
the Claims Court clearly erred in holding that Plaintiffs
had proven their ownership interest in the peninsula here
at issue. We address the first two issues below.
1.

Statute of Limitations

The Claims Court concluded that nothing prior
to the 2006 Beasley fax began the clock for Plaintiffs’
takings claim because the property dispute about the gun
mount was “never refined to the point of interfering with
plaintiffs’ use and enjoyment” of the allegedly taken land.

14a
Appendix A
Katzin II, 127 Fed. Cl. at 473-74.
The government contends that if any physical taking
occurred, it was when the F&WS placed physical signs on
the peninsula demarcating the government’s ownership
claim. The 1985 Survey plat shows Tract if as an enclosed
polygon, defined by plot markers 606, 607, 609, 610, and
611. See Figure 3. Marker 606 was found in the location
corresponding to its location on the plat, but none of
the other markers allegedly defining the polygon were
found. The government argues that there is no evidence
that the remaining markers were not also placed on the
property according to the locations indicated on the 1985
Survey plat, and that the markers’ express prohibition
of access constituted an interference with Plaintiffs’
property with respect to Tract 1f. The government
argues that Plaintiffs knew of the markers, as evidenced
by Dr. Katzin’s reference to the marker numbers in his
1987 correspondence with the F&WS. From Dr. Katzin’s
knowledge, the government concludes that the markers
cannot be interpreted as anything other than a physical
encroachment of both the gun mount and the maritime
zone, and that therefore Plaintiffs’ takings claim is timebarred. The government further argues that Navy Map
No. 323, the “official map for the transfer” of lands on
Culebra from the Navy to F&WS, showed a governmentowned gun mount, and that communications between
government branches also showed the gun mount as
government property.
Plaintiffs respond that their takings claim did not
accrue in 1987 for two reasons. First, Dr. Katzin claims

15a
Appendix A
that he did not have notice of the government’s defined
assertion of title to the polygonal gun mount site in 1987.
He asserts that the only map then in his possession,
Navy Map No. 323, showed the gun mount site within the
maritime-terrestrial zone, and not as a discrete plot within
Plaintiffs’ property. Second, Plaintiffs argue that the only
point of contention between the parties in 1987 was over
the extent of the maritime-terrestrial zone, as shown by
the lack of any discussion of a gun mount site in the 1987
correspondence and the 1995 Agreement of Exchange.
The 1987 placement of the signs and correspondence
did not start the running of the statute of limitations.
We see no error in the Claims Court’s finding that the
sign at point 606 and others along the coast could have
related to the maritime zone. Even assuming that all the
numbered markers were placed according to the 1985
F&WS survey, those markers would not necessarily
restrict Plaintiffs’ access to the polygonal gun mount site.
Because the markers generally follow the coastline and
thus reasonably relate to the maritime zone, there is no
indication that the government interfered with Plaintiffs’
access or enjoyment of the land identified as the gun mount
site in the F&WS’s email to Mr. Klaber’s attorney. The
government does not dispute that if the markers relate
to the maritime zone, then they did not start the clock on
the statute of limitations.
The 1987 correspondences between Dr. Katzin and the
F&WS alone, or in combination with the physical signs,
also did not effect a taking. The 1987 correspondences
were clearly focused on resolving the boundaries of the

16a
Appendix A
maritime-terrestrial zone. Dr. Katzin’s letter to the F&WS
states that “our boundary situation has many similarities
to that of Culebra Enterprises and I would like to explore
with you the possibilities of a similar solution.” J. App’x
2936. The Culebra Enterprises solution only addressed
the maritime zone boundary: the goal was to redraw the
maritime zone boundaries so that the protected wetlands
would all belong to the F&WS, and lands beyond the
maritime zone would belong to Culebra Enterprises.
Neither the Culebra Enterprises correspondence nor Dr.
Katzin’s correspondences with the F&WS addressed the
gun mount site or any other non-coastal land.
Even if Plaintiffs “knew or had reason to know of
the government’s claims to the maritime zone and the
former gun mount site prior to the contract with Mr.
Klaber,” Katzin II, 127 Fed. Cl. at 473 (citing Dr. Katzin’s
1987 correspondences with the F&WS)(emphasis added), 2
both parties agree that a mere government assertion of
ownership does not constitute a taking. Br. of Appellant
at 4142 and n.3; Br. of Appellee at 43 (citing Katzin I, 120
Fed. Cl. at 214 (citing Cent. Pines Land Co. v. United
States, 107 Fed. Cl. 310, 325 (2010)). It logically follows
that the government’s internal documents here also do
not constitute a taking, as they do not do anything other
than confirm the government’s assertion of ownership.
2. The government reasons that Dr. Katzin knew of the
government’s assertion of ownership because: Dr, Katzin’s letter to
the F&WS references the marker numbers from the 1985 Survey,
and that that survey shows a horizontal line between points 606
and 611, defining the polygonal gun-mount site allegedly taken.

17a
Appendix A
Finally, we note that the scope and location of the
government’s alleged taking was not fixed in 1987 as the
mostly square northerly gun mount site shown in the
F&WS’s email to Mr. Klaber’s attorney in 2006. To the
contrary, Navy Map No. 323 showed a gun mount site
within the maritime-terrestrial zone, and the 1985 Survey
showed a polygonal gun mount site labeled “Tract 1f’
defined by the F&WS signs. Neither of those documents
clearly corresponds to Plaintiffs’ current takings claim.
We therefore conclude that Plaintiffs’ takings claim
as to the square northerly gun mount site shown in the
2006 email is not precluded by the Tucker Act’s statute
of limitations.
2. 	Physical Taking
We turn now to the Claims Court’s determination
that a physical taking of the entire 10.01-acre peninsula
occurred when F&WS sent the Beasley fax to Mr.
Klaber’s attorney detailing the government’s assertions
of ownership.
The Claims Court recognized that the fax was not a
physical occupation of plaintiffs’ property. Katzin II, 127
Fed. Cl. at 480. Nevertheless, the Claims Court explained
that a non-possessory “physical” taking occurs when
governmental action “prohibits or prevents a landowner
from exercising his or her property rights because of a
governmental claim of ownership of those rights.” Id. at
479. The Claims Court concluded that the Beasley fax did
just that: “the government has made a claim of ownership

18a
Appendix A
to part of plaintiffs property, and it has communicated
that claim to prospective purchasers of plaintiffs’ land,
which actions plaintiffs claim have prevented them from
exercising their right to sell Parcel 4.” Id. at 480. The
Claims Court therefore concluded that the Beasley fax was
a physical taking requiring just compensation. Id. at 482.
A physical taking is a specialized type of governmental
action that requires compensation per se, and we draw
a bright line between the analysis applicable to alleged
physical takings and that applicable to regulatory takings.
See Tahoe-Sierra Preserv. Council, Inc. v. Tahoe Reg’l
Planning Agency, 535 U.S. 302, 323-24, 122 S. Ct. 1465,
152 L. Ed. 2d 517 (2002) (“For the same reason that we
do not ask whether a physical appropriation advances a
substantial government interest or whether it deprives
the owner of all economically valuable use, we do not
apply our precedent from the physical takings context to
regulatory takings claims.”). “A physical taking generally
occurs when the government directly appropriates private
property or engages in the functional equivalent of a
‘practical ouster of [the owner’s] possession.”’ Washoe Cty.,
Nev. v. United States, 319 F.3d 1320, 1326 (Fed. Cir. 2003)
(quoting Lucas v. S.C. Coastal Council, 505 U.S. 1003,
1014, 112 S. Ct. 2886, 120 L. Ed. 2d 798 (1992) (brackets
added in Lucas).
In addition, two categories of regulatory actions
will generally be deemed to be per se takings: where
the government action requires “an owner to suffer a
permanent physical invasion of her property” and where
government “regulation[s] completely deprive[] an owner

19a
Appendix A
of all economically beneficial use of her property.” Casitas
Mun. Water Dist. v. United States, 543 F.3d 1276, 1289
(2008) (internal citations and quotation marks omitted). A
permanent physical invasion “is perhaps the most serious
form of invasion of an owner’s property interests,” and
is usually such “an obvious fact that [it] will rarely be
subject to dispute.” Loretto v. Teleprompter Manhattan
CATV Corp., 458 U.S. 419, 435, 437, 102 S. Ct. 3164, 73
L. Ed. 2d 868 (1982). The deprivation of all economically
beneficial use of property via regulation is a “rare” and
“extraordinary circumstance.” Lucas, 505 U.S. at 1017-18.3
“Outside these two relatively narrow categories
. . . regulatory takings challenges are governed by the
standards set forth in Penn Central Transp. Co. v. New
York City, 438 U.S. 104, 98 S. Ct. 2646, 57 L. Ed. 2d 631
(1978).” Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 538,
125 S. Ct. 2074, 161 L. Ed. 2d 876 (2005); see also Casitas,
543 F.3d at 1289. The parties in this case have not asked us
to analyze this claim under the Penn Central framework.
Plaintiffs argue that the Claims Court was correct that
the Beasley fax “in fact appropriate[d] plaintiffs’ property
rights” because Plaintiffs “could not offer unfettered
3. We discuss per se regulatory takings in part because the
Claims Court relied heavily on Yuba Goldfields, which we have
categorized as a regulatory takings case, Dimare Fresh, Inc. v.
United States, 808 F.3d 1301, 1309 (Fed. Cir. 2015), and because
Judge Newman’s Dissent premises its holding of a per se taking
because of the loss of “all economically beneficial uses” of the
property, Dissent at 9 (citing Lucas, 505 U.S. at 1017), which is a
per se regulatory analysis.

20a
Appendix A
title to potential buyers” due to the government’s claims.
Katzin II, 127 Fed. Cl. at 481. According to Plaintiffs, this
constitutes a non-possessory physical taking within the
scope of Yuba Goldfields, Inc. v. United States, 723 F.2d
884 (Fed. Cir. 1983). Plaintiffs also argue that the Claims
Court determination that the fax rendered the property
inalienable is supported by the record.
We hold that the government’s mere sharing of
information about its claim of ownership to real property
with a third party does not constitute a physical taking
(or a per se regulatory taking) of that property. The
Claims Court erroneously explained that government
action categorically effects a taking when it “prohibits or
prevents a landowner from exercising his or her property
rights because of a government claim of ownership of those
rights.” See Katzin II, 127 Fed. Cl. at 479. This broad
standard is contrary to the circumscribed role that the
Supreme Court assigned to per se takings, as described
above.
The Beasley fax does not constitute a physical taking
or a per se regulatory taking under Supreme Court
precedent. By sending the Beasley fax, the government
did not: physically occupy some part of Plaintiffs’ property,
require Plaintiffs to suffer a permanent physical invasion,
directly appropriate Plaintiffs’ property, effect the
functional equivalent of an ouster of Plaintiffs’ possession,
or deprive Plaintiffs of all economically beneficial use of
Plaintiffs’ property. Indeed, the Beasley fax did nothing
more than disseminate information about the government’s
property claims to Mr. Klaber and other potential buyers;

21a
Appendix A
it did not actually change any rights in any part of Parcel 4.
At most, the Beasley fax disseminated information about
the government’s claims, and the market incorporated
that information into its valuation of the property. This
lowering of the market value is a far cry from a total
deprivation of all economically beneficial use of Parcel 4.
The lowering of the market value without a legal restraint
on alienability generally does not constitute a physical or
per se regulatory taking’. Cf. Dimare Fresh, 808 F.3d at
1310 (“The fact that the market chooses to incorporate
all available information, without more, cannot form the
basis of a regulatory takings claim.”); id. at 1311 (“Unlike
A&D Auto Sales and Yuba, in the case before us, there
is not a prohibition or any coercive government action
restricting the Tomato Producers from selling, disposing,
or using their produce however they desire. What Tomato
Producers effectively request is for this court to find
that government action devoid of coercion, legal threat,
regulatory restriction, or any binding obligation may
effect a regulatory taking. We will not.”); Kirby Forest
Indus., Inc. v. United States, 467 U.S. 1, 15, 104 S. Ct. 2187,
81 L. Ed. 2d 1 (1984) (“[I]mpairment of the market value of
real property incident to otherwise legitimate government
action ordinarily does not result in a taking. At least in
the absence of an interference with an owner’s legal right
to dispose of his land, even a substantial reduction of the
attractiveness of the property to potential purchasers
does not entitle the owner to compensation under the Fifth
Amendment.” (footnote and citations omitted))4.
4. The Dissent states that Kirby Forest “stands for the
opposite proposition,” Dissent at 9-10, but the Supreme Court
there found no taking prior to the condemnation, noting that

22a
Appendix A
Plaintiffs’ and the Claims Court’s reliance on Yuba
Goldfields, 723 F.2d 884, is also misplaced. In Yuba
Goldfields, plaintiff Yuba Goldfields owned the right to
dredge for minerals located on property owned by the
United States. 723 F.2d at 885. In 1975, the government
told Yuba that it had no more rights to the minerals on
the property, that Yuba would be held accountable for all
minerals extracted, and that the United States would
enforce its property rights against Yuba. Id. at 885-86.
We held that Yuba could argue that the government took
its property, without testing the government’s resolve
by renewing its activities and thereby being physically
restrained. Id. at 887-88. Yuba Goldfields cannot support
the Claims Court’s holding in this case for a number of
reasons. That case held, in relevant part, that “[n]either
physical invasion nor physical restraint constitutes a sine
qua non of a constitutionally controlled taking.” 723 F.3d
at 887. First, to support that holding, this court cited to
Penn Central, which set out the scheme for regulatory,
not physical, takings. See Dimare Fresh, 808 F.3d at 1309
(characterizing Yuba Goldfields as discussing a regulatory
“The Government never forbade petitioner to cut the trees on
the land or to develop the tract in some other way.” 467 U.S. at
15. Moreover, the Court explained that the Government did not
“abridge petitioner’s right to sell the land . . . . [This is true even
though it] is certainly possible, as petitioner contends, that the
initiation of condemnation proceedings, publicized by the filing
of a notice of lis pendens, reduced the price that the land would
have fetched.” Id. Similarly, here, the Government did not actually
restrict Plaintiffs’ rights to make use of the property, and the
potential reduction in market price from the Government’s claims
does not constitute a physical or per se regulatory taking.

23a
Appendix A
takings claims). As the Supreme Court explained
in Tahoe-Sierra, precedent from one form of taking
cannot support the other. 535 U.S. at 323. Moreover, and
importantly, Yuba Goldfields never went so far as to say
that any interference with property interests arising out
of a government claim of ownership was a per se taking.
The government there did not merely claim ownership of
the minerals—it explicitly prohibited Yuba from making
any use of the property (i.e. extracting the minerals), and
threatened prosecution if Yuba, in fact, made use of the
property.
The Beasley fax amounts to neither a prohibition
on access nor a threat of enforcement. The fax did not
prohibit Plaintiffs from taking any action with respect to
the gun mount or the peninsula. The Beasley fax merely
reasserted claims of ownership that the government had
been making for decades. The fax did not amount to a
physical taking.
The Dissent insists that the government deprived
Plaintiffs of “all economically beneficial uses” of the
property “based on the government’s assertions of
ownership.” Dissent at 9, 11. The government, however,
has been asserting its ownership of a gun mount on the
peninsula since at least the 1980s, and, as the Claims
Court found, Dr. Katzin knew of the government’s claims
of ownership since at least 1987. The only government
action Plaintiffs allege gave rise to a physical taking is
the Beasley fax. But the Dissent does not, and cannot,
explain how the Beasley fax constitutes a physical taking
under the Supreme Court’s and our precedent, or how

24a
Appendix A
the Beasley fax itself—rather than the government’s
earlier assertions of ownership—deprived Plaintiffs of
all economically viable use of their property.
Conclusion
Because the Beasley fax was not a physical taking, we
reverse. As the Dissent correctly points out, the heart of
this dispute is the title to the gun mount site. However,
even if Plaintiffs were to establish title to the peninsula,
because the Beasley fax was not a physical taking, Plaintiff
is not entitled to just compensation under a physical
takings theory. We therefore need not and do not address
the government’s additional arguments that Plaintiffs did
not prove ownership of the peninsula or that the Beasley
fax did not in fact render Parcel 4 inalienable.
We note that this dispute spans over a hundred years
of surveys, assertions, and communications, and we
encourage both parties to seek clarity over the property
in question through settlement or other available avenues
of resolution.
REVERSED
Costs
No costs.

25a
Appendix A
Newman, Circuit Judge, dissenting.
I respectfully dissent. The Court of Federal Claims
(“CFC”), on exhaustive analysis, traced title to the Katzin
and Winters (“Katzin”) property back to the Spanish
ownership of Puerto Rico.1 The court inspected the deeds
recorded in the Registry of Property of Puerto Rico,
received testimony from experts, and in a full and lengthy
opinion with maps and other documentary detail, found
that the Katzins’ “title to Parcel 4 includes title to the
peninsula, subject to the maritime terrestrial zone and
rescue easement that all parties concede are controlled by
the government.” CFC Op. at 478. With this confirmation
of the Katzins’ title to land over which the government
asserts ownership, the takings inquiry was resolved in
favor of the Katzins. CFC Op. at 484.
The United States appeals this decision, but my
colleagues decline appellate review of the Court of Federal
Claims’ findings of title and ownership. Resolution of the
takings claim requires resolution of ownership of the
land. Despite the Katzins’ registered deed, the United
States asserts that the government, not the Katzins,
owns the entirety of the 10.01 acre peninsula, as well as
the government’s undisputed ownership of a 2.25 acre
gun mount site at an unknown location. The government
has so advised potential purchasers and has eliminated
all possibility of sale of the land. That is what this case is
about, for the right to sell one’s property is a fundamental
tenet of ownership.
1. Katzin v. United States, 127 Fed. Cl. 440 (2016) (“CFC
Op.”).

26a
Appendix A
The Court of Federal Claims applied classical takings
analysis: “This court has developed a two-step approach
to takings claims. ‘First, a court determines whether the
plaintiff possesses a valid interest in the property affected
by the governmental action, i.e., whether the plaintiff
possessed a “stick in the bundle of property rights.” Boise
Cascade Corp. v. United States, 296 F.3d 1339, 1343 (Fed.
Cir. 2002) (quoting Karuk Tribe of Cal. v. Ammon, 209
F.3d 1366, 1374 (Fed. Cir. 2000)). Then, after resolving
ownership of the property and finding for the plaintiff, ‘the
court proceeds to the second step, determining ‘whether
the governmental action at issue constituted a taking of
that “stick.” Id. (quoting Karuk Tribe, 209 F.3d at 1374).
In adjudicating the Katzins’ takings claim, the Court
of Federal Claims reviewed the history of Parcel 4 and
the 10.01 acre peninsula located therein—from initial
disposition by Spain through subdivisions and transfers,
the creation of a maritime terrestrial zone and related
easement, and the 1903 purchase by the United States of
a 2.25 acre gun mount site. Again, “as a threshold matter,
the court must determine whether the claimant has
established a property interest for purposes of the Fifth
Amendment.” Huntleigh USA Corp. v. United States, 525
F.3d 1370, 1377 (Fed. Cir. 2008). Ownership is an essential
predicate to a takings claim and requires decision.
The court today holds that the actions of the United
States are not a taking, and declines to review the decision
of the Court of Federal Claims concerning ownership
of the 10.01 acre peninsula, stating that “because the
Beasley fax was not a physical taking,” it is unnecessary
to address title. Maj. Op. at 21. However, the Beasley fax

27a
Appendix A
is the foundation of the takings issue. On the letterhead
of the Fish & Wildlife Service Division of Realty, with the
caption “Title of piece of land in Punta del Viento, Culebra,
Puerto Rico,” Mr. Beasley, on behalf of the Service, wrote
to the contracted purchaser of the Katzins’ property, with
maps and documents “showing the lots and the maritime
zone now owned by the F&WS.” J.A. 3115, 3114-21.
The Beasley fax contained a “tracing of the 1887 map
with F&WS parcel numbers added,” and the 1982 Federal
Register notices regarding land transfers. However,
Mr. Beasley also stated that he “did not find the letter
of transmittal” showing transfer of ownership to Fish
& Wildlife. J.A 3115. Review of the language of the Beasley
fax shows the uncertainty and partial information that the
government injected into the Katzins’ property and title.
My colleagues “encourage both parties to seek clarity
over the property in question through settlement or other
available avenues of resolution.” Maj. Op. at 21. However,
the existence of this lawsuit demonstrates the absence
of settlement or other avenues of resolution. The judicial
obligation is to “adjudicat[e] actual and concrete disputes,
the resolutions of which have direct consequences on the
parties involved.” Genesis Healthcare Corp. v. Symczyk,
569 U.S. 66, 71, 133 S. Ct. 1523, 185 L. Ed. 2d 636 (2013).
The resolution of dispute as to ownership is essential
to determining whether there was a taking under the
Fifth Amendment. My colleagues disregard precedent by
stating they “need not and do not address” the question
of title. See Cohens v. Virginia, 19 U.S. (6 Wheat.) 264,
404, 5 L. Ed. 257 (1821) (Marshall, C.J.) (“The judiciary

28a
Appendix A
cannot, as the legislature may, avoid a measure because
it approaches the confines of the constitution.”).
The Katzins’ ownership comports with the evidence
The Court of Federal Claims conducted a nine day trial
in Puerto Rico and on the mainland, and determined the
title and ownership of the tracts at issue. The court found
that, for the 10.01 acre peninsula on the eastern side of
Parcel 4, the Katzins own this tract in fee simple “through
a chain of title extending back to the late 1800s.” CFC Op.
at 476. The court reviewed the recorded deeds, received
expert testimony on Puerto Rican property law and
procedure, heard the government’s criticisms of various
maps and surveys, and found that the “property registry
contains no indication whatsoever that the government,
or any other owner for that matter, separately acquired
title to the peninsula such that it was segregated from the
remainder of the property.” Id. at 477. The court found
that the Katzins’ “title to Parcel 4 includes title to the
peninsula, subject to the maritime terrestrial zone and
rescue easement that all parties concede are controlled
by the government.” Id. at 478.
The Court of Federal Claims also considered the issue
concerning the 2.25-acre gun mount site purchased by
the Navy in 1903, of which the unmarked location was
a subject of controversy at trial. 2 On reviewing the 1903
deed and agreement of sale, the court found that the tract
2. The panel majority errs in stating that the “title to the
gun mount site” is “the heart of this dispute.” Maj. Op. at 21. Title
to the gun mount site was resolved in 1903 by deed and contract.
Neither the Katzins nor the government challenged this title.

29a
Appendix A
was located on “[f]ormer Lot 25 (now Parcel 5) [which] is
located north of Parcel 4, placing the 2.25 acre tract well
outside of the plaintiffs’ current property.” CFC Op. at
478 (citation to record omitted).
The government argued that there was a discrepancy
between the agreement of sale of the gun mount site,
signed the day after the deed was executed, and the
deed’s description of the tract. The government argued
that the agreement of sale should control over the deed.
The Court of Federal Claims reviewed all the documents
including naval records relating to the gun mount,
received expert testimony, and rejected the government’s
argument, based on: (1) the presumptions due a recorded
deed under Puerto Rican real property law; (2) the
“executory, i.e. taking effect at a future time” language of
the agreement of sale; and (3) general inconsistency and
insufficiency of the evidence regarding the agreement
of sale. Id. at 478-79. Discussing the naval records, the
court found that “[t]hese documents, however, are not
proof of the tract’s location,” but rather, “[alt most, these
records demonstrate that Navy personnel, and later [Fish
& Wildlife] personnel, thought the 2.25—acre tract was
located on or near the peninsula.” Id. at 479. The court
concluded that because “no physical indicia exist” of the
gun mount, “the government’s claim to ownership of part
of Parcel 4 as a site for a gun mount must fail.” Id.
I do not share my colleagues’ view that adjudication
of these foundational questions should be set aside, and
the parties returned to their prior stand-off whereby the
property ownership continues to be disputed and thus
cannot be sold by the registered deeded owner.

30a
Appendix A
Resolution of disputed title is predicate to a takings
claim
It is established that “in the case of a takings claim,
the Court of Federal Claims has jurisdiction to determine
the existence of property rights as a threshold inquiry in
any takings case.” Petro-Hunt, L.L.C. v. United States,
862 F.3d 1370, 1379 (Fed. Cir. 2017). In Bourgeois v. United
States the Court of Claims discussed the alternative
availability of the Quiet Title Act, and wrote:
This court is not denied jurisdiction now, simply
because there is a quiet title issue involved in
determining entitlement to just compensation
vel non. As the Supreme Court stated in Malone
v. Bowdoin [369 U.S. 643, 647 n.8, 82 S. Ct. 980,
8 L. Ed. 2d 168 (1962)], the Court of Claims is an
appropriate forum where plaintiff can try title
by seeking just compensation for the taking of
land by the United States.
545 F.2d 727, 729 n.1, 212 Ct. Cl. 32 (Ct. Cl. 1976).
When title is disputed as to property purportedly
taken, and the remedy sought is just compensation, the
Court of Federal Claims has authority to decide title. The
government argues that allowing the Katzins to litigate
title here is “an obvious end-run around the Quiet Title
Act.” Gov’t Br. 46-47. Precedent is contrary. See, e.g.,
Malone, 369 U.S. at 647 n.8 (“Unlike the situation in
[United States v. Lee, 106 U.S. 196, 1 S. Ct. 240, 27 L. Ed.
171 (1882)], there has been at all relevant times a tribunal
where the respondents could seek just compensation for

31a
Appendix A
the taking of their land by the United States. That tribunal
is the Court of Claims.”); Gila Gin Co. v. United States,
231 Ct. Cl. 1001, 1002 (1982) (“[T]he jurisdiction of the
district courts over quiet title actions under 28 U.S.C.
§ 2409a does not preclude us from determining actions for
just compensation even though the existence of a taking
vel non depends upon whether the government had title
to the property it allegedly took.”).
The Supreme Court described the Court of Claims as
a tribunal where sovereign immunity does not bar action
against the United States. Malone, 369 U.S. at 647 n.8. In
Yaist v. United States, 656 F.2d 616, 620, 228 Ct. Cl. 281
(Ct. Cl. 1981), where both the plaintiff and the government
claimed title to a parcel of land in the Florida Everglades,
the Court of Claims reiterated that “the plaintiff could
appropriately try title in a just compensation suit, because
the Quiet Title Act specifically excepted actions that could
be brought under 28 U.S.C. § 1491.” Id.; see also Carlson
v. United States, 208 Ct. Cl. 1022, 1023 (1976) (“[T]he
Supreme Court has recognized, albeit in a footnote,
the Court of Claims as an appropriate tribunal where
plaintiffs could try title by seeking just compensation for
the taking of their land by the United States.”).
The Court of Federal Claims, as the trial court
successor to the Court of Claims, has been faithful to this
responsibility. See Dwen v. United States, 62 Fed. Cl. 76,
81 (2004) (“It is now well-established that the court has
jurisdiction to make independent factual determinations
of a claimant’s specific property interest as a matter of
course in adjudicating takings claims.”) (collecting cases).

32a
Appendix A
The Katzins have not simply requested a declaration
of their title as against the United States; their claim is
for just compensation for the taking of their property
by the United States. Precedent is clear that title may
be determined as part of a just compensation claim. As
stated in Gila Gin Co.:
Yaist and Bourgeois unequivocally hold that if
a suit involving a dispute over title seeks just
compensation for the government’s taking (as
distinguished from return of the property),
this court has jurisdiction. This is true even if
the same suit could have been brought, and the
same relief obtained, in the district court under
the Quiet Title Act.
231 Ct. Cl. at 1003 (citation omitted). And in Petro-Hunt,
the Federal Circuit rejected the argument that “accrual
of [the plaintiff’s] permanent takings claim should have
been suspended until resolution of the Quiet Title Action
[in the district court].” 862 F.3d at 1379. Precedent is
unequivocal on this point.
The Court of Federal Claims fulfilled its responsibility
in determining the Katzins’ property rights. It now falls
upon the Federal Circuit to decide the appeal. See Sprint
Communs., Inc. v. Jacobs, 571 U.S. 69, 77, 134 S. Ct. 584,
187 L. Ed. 2d 505 (2013) (“Federal courts, it was early and
famously said, have ‘no more right to decline the exercise
of jurisdiction which is given, than to usurp that which is
not given.”’ (quoting Cohens v. Virginia, 19 U.S. at 404)).

33a
Appendix A
Clouding of title, blocking of conveyance, and
destruction of economic value constitute a taking
of property
The Court of Federal Claims found that the 10.01
acre peninsula had been taken by the United States. The
panel majority now reverses that ruling, holds that the
government’s “claims of ownership” were “not a physical
taking,” and that there is no judicial redress although
the government’s actions to block sale have removed all
economic value from the property. Maj. Op. at 20-21. It
is not disputed that the Katzins have been unable to sell
the property. The Court of Federal Claims found that the
“evidence of unsalability has not been contravened by the
government,” and that the “evidence in the record shows
that after Mr. Beasley sent the facsimile of June 22, 2006,
the plaintiffs lost a prospective buyer in Mr. Klaber, and
have since been unable to sell the land.” CFC Op. at 482.
As the majority recognizes, “several potential buyers
refused to buy the property” in view of the government’s
ownership claim. Maj. Op. at 9.
The “right to convey hearkens back to the Statute
of Quia Emptores in the year 1290, and the right to
alienate one’s property has been accepted as an incident
of an estate in fee simple ever since.” Chianese v. Culley,
397 F. Supp. 1344, 1345 (S.D. Fla. 1975). “[F]or what is
the land but the profits thereof[?]” Lucas v. S.C. Coastal
Council, 505 U.S. 1003, 1017, 112 S. Ct. 2886, 120 L. Ed.
2d 798 (1992) (quoting 1 E. Coke, Institutes, ch. 1, § 1 (1st
Am. ed. 1812)).

34a
Appendix A
The purpose of this Fifth Amendment provision is to
“secure compensation in the event of otherwise proper
interference amounting to a taking.” Lingle v. Chevron
U.S.A. Inc., 544 U.S. 528, 537, 125 S. Ct. 2074, 161 L. Ed.
2d 876 (2005). “As its text makes plain, the Takings Clause
‘does not prohibit the taking of private property, but
instead places a condition on the exercise of that power”;
that condition is the payment of just compensation. Id. at
536 (quoting First English Evangelical Lutheran Church
of Glendale v. County of Los Angeles, 482 U.S. 304, 314,
107 S. Ct. 2378, 96 L. Ed. 2d 250 (1987)). While precedent
recognizes that incidental changes in general law can
diminish land value without creating a taking, justiciable
distinction arises “where the government has deprived
a landowner of all economically beneficial uses.” Lucas,
505 U.S. at 1018.
The panel majority writes that “[a]t most, the Beasley
fax disseminated information about the government’s
claims, and the market incorporated that information
into its valuation of the property.” Maj. Op. at 18. Indeed
so, for thereafter the Katzins have been unable to sell
their property. CFC Op. at 481-82. The Court of Federal
Claims found that the “evidence of unsalability has not
been contravened by the government.” CFC Op. at 482.
My colleagues assign no error to that finding.
A case upon which my colleagues rely, Kirby Forest
Industries, Inc. v. United States, 467 U.S. 1, 104 S.
Ct. 2187, 81 L. Ed. 2d 1 (1984), stands for the opposite
proposition than that for which it is cited. The Court in
Kirby Forest stated:

35a
Appendix A
We have frequently recognized that a radical
curtailment of a landowner’s freedom to make
use of or ability to derive income from his land
may give rise to a taking within the meaning of
the Fifth Amendment, even if the Government
has not physically intruded upon the premises
or acquired a legal interest in the property.
Id. at 14. The Court expressly left open the question
of “whether abrogation of an owner’s right to sell real
property, combined with a sufficiently substantial
diminution of its utility to the owner, would give rise to
a taking,” id. at 15 n.25, while recognizing that where
there is “an interference with an owner’s legal right to
dispose of his land” there can be a taking. Id. at 15. 3 The
Court of Federal Claims found that the government wholly
frustrated the Katzins’ ability to sell their property. CFC
3. The majority proposes that Kirby Forest supports its
position, Maj. Op. at 19 n.4. To the contrary. In Kirby Forest
the entitlement to just compensation was undisputed, and the
major question was “the date on which the taking, in a ‘straightcondemnation’ proceeding, should be deemed to occur and the
constitutional obligation of the United States to pay interest on
the adjudicated value of the property.” 467 U.S. at 9. Kirby Forest
Industries had agreed with the United States that the timberland
would become part of a national forest preserve and had voluntarily
ceased logging. Id. at 6. After price negotiations failed, price
was decided in a condemnation proceeding. Id. at 7-8 (awarding
“compensation in the amount of $2,331,202” and “interest at a rate
of six percent”). The Court then resolved when interest started
to accrue. The government did not dispute title, as it does here.
Kirby Forest provides no support for the majority’s ruling herein
that no taking occurred.

36a
Appendix A
Op. at 482. My colleagues recognize as much. See Maj. Op.
at 8-9 (“Mr. Beasley replied by faxing several documents
. . . . On June 28, 2006, Ms. Motta communicated to
Plaintiffs that Mr. Klaber would not buy Parcel 4.
Thereafter, several potential buyers refused to buy the
property.”).
The Court of Federal Claims found that “[t] here is
no indication from the record of trial that, absent court
intervention, the government intends to renounce its claim
of ownership to a part of plaintiffs’ property, or that it
has done so at the time of this writing.” Id. at 481. This
position is not softened by the government on appeal. The
Court of Federal Claims correctly determined that the
government’s actions constitute a taking of the Katzins’
real property, based on the government’s assertion of
ownership and the effect on alienation of the property. Id.
Now before us on appeal, “a federal court’s ‘obligation’ to
hear and decide” cases within its jurisdiction “is ‘virtually
unflagging.”’ Sprint, 571 U.S. at 77 (quoting Colorado
River Water Conservation Dist. v. United States, 424
U.S. 800, 817, 96 S. Ct. 1236, 47 L. Ed. 2d 483 (1976)). This
obligation is not met by an optimistic hope of “settlement
or other available avenues.” Maj. Op. at 21.

37a
Appendix A
Conclusion
I do not discern reversible error in the decision of
the Court of Federal Claims, or any basis for declining to
review that court’s findings of title and ownership. From
my colleagues’ contrary rulings, I respectfully dissent.

38a
Appendix
B AND ORDER
APPENDIX B —
OPINION
OF THE UNITED STATES COURT OF
FEDERAL CLAIMS, FILED JULY 15, 2016
IN THE UNITED STATES COURT
OF FEDERAL CLAIMS
No. 12-384L
July 15, 2016, Filed
RICHARD LEWIS KATZIN, et al.,
Plaintiff,
v.
UNITED STATES,
Defendant.
Roberto E. Berríos Falcón, San Juan, Puerto Rico
for plaintiffs. With Mr. Berríos during the trial and on
the briefs were Roger J. Marzulla and Ian F. Gaunt,
Marzulla Law, LLC, Washington, D.C. Also with him on
the briefs was Nancie G. Marzulla, Marzulla Law, LLC,
Washington, D.C.
Emily M. Meeker, Env ironment and Natural
Resources Division, United States Department of Justice,
Washington, D.C., for defendant. With Ms. Meeker
during the trial and on the briefs were William J. Shapiro
and Cullen S. Shearburn, Environment and Natural

39a
Appendix B
Resources Division, United States Department of Justice,
Washington, D.C. Also with her on the briefs was John C.
Cruden, Assistant Attorney General, Environment and
Natural Resources Division, United States Department
of Justice, Washington, D.C.
OPINION AND ORDER
LETTOW, Judge.
This post-trial opinion addresses claims by plaintiffs
Dr. Richard Lewis Katzin (“Dr. Katzin”), Mary Beth
Katzin Simon (“Ms. Katzin”), and Rose Marie Kjeldsen
Winters (“Ms. Winters”) that the United States (the
“government”) interfered with their ownership rights to
a parcel of land (“Parcel 4”) which overlooks the Atlantic
Ocean on Culebra Island, Puerto Rico, and that the
interference effected a taking in contravention of the Fifth
Amendment. In 2006, plaintiffs retained a real estate
broker to sell the parcel and entered into an agreement
of sale with a buyer. A representative of the United States
Fish & Wildlife Service (“FWS”), however, informed the
buyer that FWS owned a strip of land along the coast of
Parcel 4, an approximately 2.25-acre former gun mount
site on a peninsula within Parcel 4, and the peninsula
itself. Plaintiffs allege that the FWS’s claim of competing
ownership caused the buyer to rescind the contract.
They also assert that since then FWS’s continuing claim
of ownership to the entire 10.01-acre peninsula on the
eastern side of the property has prevented them from
selling Parcel 4.

40a
Appendix B
This case raises factual questions of property
ownership that turn “in large part on events and
handw ritten records spanning the 19th and 20th
centuries,” beginning when Culebra was a possession
of the Kingdom of Spain. Katzin v. United States, 120
Fed. Cl. 199, 201 (2015). The government asserts that
plaintiffs’ claims are barred by the six-year statute of
limitations set out in 28 U.S.C. § 2501 because the United
States has claimed ownership of the coastal strip and the
former gun mount site for many decades, and plaintiffs
knew or should have known about these claims. Def.’s
Post-Trial Br. at 48-57, ECF No. 131. Alternatively,
the government asserts that plaintiffs’ claims should
be barred by the equitable doctrine of laches, arguing
that plaintiffs’ delay in bringing these claims before this
court caused undue prejudice or injury to the United
States. Id. at 57-62. Finally, the government asserts
that plaintiffs have failed to establish that they own the
peninsula on which a part of the former gun mount site
and coastal strip are located, and that, in any event, the
government’s claims of ownership did not effect a taking
of plaintiffs’ property interests. Id. at 62-98. A nine-day
trial was held in Washington, D.C. and San Juan, Puerto
Rico, commencing on November 12, 2015, and ending
on November 24, 2015. Following post-trial briefing, a
closing argument was held on March 31, 2016. The case
is now ready for disposition.

41a
Appendix B
FACTS1
A. History of Property Interests on Culebra
Culebra is an archipelago of islands approximately
seventeen miles east of the island of Puerto Rico and
twelve miles west of St. Thomas. Katzin, 120 Fed. Cl.
at 201-02; PX 421 at 3 (Expert Report of Awilda Rosa
Santiago, “A Brief History of the Settlement of Culebra”).2
The largest island, also named Culebra, is approximately
7 miles long and 3.5 miles wide with low hills and “a
variety of tropical flora and fauna,” including protected
mangroves, coral reefs, sea birds, and sea turtles. Katzin,
120 Fed. Cl. at 202; DX 1 at 11-12 (Report of the Puerto
Rico Planning Board, “Culebra: A Plan for Conservation
and Development” (Oct. 1973)). Culebra is known for its
beautiful beaches and natural harbors, but its climate is
generally dry and fresh water is limited. PX 412 at 3; DX 1
at 11-12. The climate is also very mild, with temperatures
rarely rising above the high eighties or falling below the
1. The recitation of facts constitutes the court’s principal
findings of fact in accord with Rule 52(a) of the Rules of the Court
of Federal Claims (“RCFC”). Other findings of fact and rulings on
mixed questions of fact and law are set out in the analysis.
2. Citations to plaintiffs’ exhibits are identified as “PX
,”
and defendant’s exhibits are identified as “DX .” The parties have
provided agreed translations into English of documents and exhibits
written in Spanish, and those translations are designated with a “T,”
e.g., “PX 2T.” The parties have also provided agreed translations
into English of judicial decisions rendered in Spanish, and where the
court has relied on the translation, that circumstance is noted in a
parenthetical phrase following the citation to the decision.

42a
Appendix B
low seventies. DX 1 at 11. The majority of the land on the
large island is volcanically derived and contains shallow
soils “not suitable for extensive cultivation.” Id. Culebra’s
eastern or windward side faces the Atlantic Ocean, and the
Atlantic meets the Caribbean Sea at the waters adjacent
to Culebra.
1.

Development of Culebra and division of
property interests between the Kingdom of
Spain and private owners.

Puerto Rico, including Culebra, was controlled by
the Spanish crown until 1898. Katzin, 120 Fed. Cl. at
202 n.6; PX 412 at 3. Europeans did not live permanently
on Culebra until the late 1800s, in part because of the
limited availability of fresh water and because the islands’
natural harbors were frequently used by pirates. DX 1
at 6; DX 49 at 56 (FWS Annual Narrative Report for
Calendar Year 1994, Culebra National Wildlife Refuge).
Several individuals petitioned the Spanish government
in 1871 and 1874 to allow them to settle on Culebra, but
the government denied these requests. DX 1 at 6. Shortly
thereafter, however, in 1879, Spain announced that it
would encourage settlement on Culebra, and the first
settlers arrived the following year. Id. By 1899, Culebra
had 704 residents. Id.
While Culebra was under Spanish control, property
ownership on the island was subject to Spanish law.
Under the Spanish Water Act of 1866, the following
areas were considered public domain: (1) the “coasts,
or sea boundaries of the Spanish territory, with their

43a
Appendix B
works, inlets, coves, roadsteads, bays and harbors, (2)
the “maritime zone which encircles all the coasts,” as
defined by international law, and (3) the beaches, including
the land “washed by the sea in its ebb and flow.” Pls.’
Post-Trial Br. at 6, ECF No. 130 (quoting Armstrong v.
Estado Libre Asociado de Puerto Rico, 97 P.R.R. 573,
97 D.P.R. 588, 618 (1969) (translated from Spanish)). The
mangrove marshes along the coasts of many islands,
including Culebra, were also considered public domain.
Id. The Ports Act of 1880 clarified the Water Act of 1866
by defining the “maritime terrestrial zone” as “the area
of the coasts or seashore . . . that is washed by the sea
in its ebb and flow, where the tide is perceptible, or the
highest tidal waves in stormy weather when the tide is
not perceptible.” Id. at 7 (quoting Armstrong, 97 D.P.R.
at 623 (translated from Spanish)). It further provided
that land bounded by the ocean was subject to a “rescue
and littoral” easement extending an additional 20 meters
inland beyond the “maritime terrestrial zone,” to be used
in the event of a shipwreck. Id.
In 1887, the Kingdom of Spain commissioned a survey
by Ramon Garcia Saenz to divide Culebra into lots to be
assigned to private landowners. PX 421 at 3; Tr. 643:68, 662:16-19 (Test. of Prof. Awilda Rosa Santiago, Univ.
of Puerto Rico); PX 2T (Survey Plan Regarding the
Island of Culebra and Its Division into Lots, 1887). 3 The
resulting survey plan divided the island into 80 lots, the
majority of which were 25 hectares (approximately 62
acres)4 in total area, to be assigned to individuals who
3. Citations to the trial transcript are to “Tr. .”
4. Land areas on Culebra are alternatively referred to in terms
of acres, hectares, and cuerdas. An acre is equivalent to 43,560 square

44a
Appendix B
would gain ownership of the property once they had
demonstrated they had undertaken efforts to cultivate the
land. Tr. 663:12-18 (Rosa); PX 3T at 4-8 (Parcel Division
of the Island of Culebra); DX 1 at 24-25. The plan also
included four “small adjacent islets,” three of which were
unoccupied and one which appears to have been settled.
PX 3T at 12. Spain retained control over the remainder
of the land on Culebra. Of that remainder, Lots 85-89
were designated as mangrove swamps (approximately 35
hectares in total), Lots 90-92 were designated as “lands
reserved for the state” (approximately 466 hectares in
total), 4.90 hectares of land were reserved “for the War
Branch,” 18.90 hectares were reserved “for the Town,”
approximately 26.5 hectares comprised Flamencos
Lagoon, 1.80 hectares comprised Los Patos Lagoon, and
134.0 hectares were designated as a “maritime zone.”
Id.; PX 421 at 3. The 134-hectare maritime zone does not
appear to be labelled as such on the survey plan. However,
a thin strip of land is demarcated along most of the coast of
the island, separated from the other 25-hectare, privately
owned lots and in some places appearing to join with other
Spanish-retained lots on the island, including mangrove
swamps and Lots 90-92 (reserved for the state). PX 2T.
The subject property in this case (Parcel 4) roughly
corresponds to the area designated as Lot 24 on the 1887
survey plan, although the size of Lot 24 is listed as 25
feet of land, and a hectare is equivalent to approximately 2.5 acres
(or approximately 107,639 square feet of land). A cuerda is a Puerto
Rican land measurement (also referred to as a “Spanish acre”) that
is equivalent to approximately 0.971 acre (or approximately 42,300
square feet of land). Tr. 385:3-12 (Wagner).

45a
Appendix B
hectares (approximately 63.6 cuerdas) and Parcel 4 is
approximately 67.5 cuerdas. Tr. 665:3-6 (Rosa); PX 3T at
6; DX 28T at 9-10 (Deed of Division, Allocation, Transfer,
and Delivery of Estate Property, Dec. 26, 1967). On the
survey plan, Lot 24 is bordered to the north by Lot 25, to
the west by Lot 22, and to the south by Lot 23. PX 2T. The
thin strip of separately demarcated land depicted along
most of the island also runs along the eastern coast of
Lot 24, which includes a small peninsula. Id. Lot 89 — a
mangrove swamp comprised of 3.70 hectares (9.14 acres)
— is labeled as such in an area within the thin strip of
coastal land to the south of Lot 33 and to the northeast
of Lot 24, across the bay called “Puerto del Manglar”
(Mangrove Port). Id.; PX 3T at 12.

PX 2 (inset of 1887 survey plan depicting Lot 24 and
surrounding area).

46a
Appendix B
2.

Changes to property interests when Puerto
Rico became a United States territory.

In December 1898, the United States and the Kingdom
of Spain signed a peace treaty known as the Treaty of
Paris at the end of the Spanish-American War. Treaty
of Peace Between the United States of America and the
Kingdom of Spain, Spain-U.S., Dec. 10, 1898, 30 Stat. 1754.
Among other things, the treaty ceded to the United States
“the island of P[ue]rto Rico and other islands now under
Spanish sovereignty in the West Indies.” Id. art. II. The
treaty also ceded ownership of all “buildings, wharves,
barracks, forts, structures, public highways and other
immovable property” in the public domain, but provided
that this cession would not impair the property rights
of individuals or “associations having legal capacity to
acquire and possess property.” Id. art. VIII. As a result
of the treaty, the United States gained control of the
maritime zone in Culebra, as described under Spanish
law, as well as the lands reserved for Spain on the 1887
survey plan such as the mangrove swamps.
In 1900, the U.S. Congress passed the Foraker Act,
which established a civil government in Puerto Rico and
declared that all U.S. federal laws were in effect in Puerto
Rico. Act of Apr. 12, 1900, Pub. L. 56-191, 31 Stat. 77, 7786. The Foraker Act also provided that all property in
Puerto Rico acquired by the United States through the
Treaty of Paris would be “placed under the control of” the
new Puerto Rican civil government. Id. § 13. In December
1901, President Roosevelt issued a general order stating
that all public lands on Culebra were “placed under the

47a
Appendix B
jurisdiction and control of the Navy Department.” DX 4
(General Order No. 75). President Roosevelt later made
a proclamation confirming that public lands on Culebra
were reserved for naval purposes. DX 5 (Proclamation
No. 4, 33 Stat. 2314 (June 26, 1903)).
In May 1902, Escolástico Mulero, who had gained
title to Lots 24 and 25 after their initial partition in 1888,
registered these lots with the Registry of Property of
Puerto Rico, where they were designated as Property
Numbers 55 and 28, respectively. PX 407 (Registry of
Property Entry for Lot 24/Property No. 55); PX 420 at
11 (Dennis D. Martinez, Opinion of Land Title Regarding
Property Located in Culebra); Tr. 772: 24 to 773:15,
825:7-23 (Test. of Dennis D. Martinez Colón) (describing
the adjudication of Lot 24/Property No. 55 and Lot 25/
Property No. 28).5 Lot 24 was described in the registry as
5. The Puerto Rican Registry of Property provides certain
procedures and protections that are distinct from other property
registries in the United States. See PX 420 at 2-10. It is based on
the Latin Notary system, in which one impartial legal counsel (the
notary) represents all parties to a property transaction, prepares
the relevant legal documents, and maintains the records of those
documents during his or her lifetime. Id. at 2-3. Under Puerto Rican
law, an “escritura pública” (authentic act, or document prepared by
and signed before a notary) is a public document that is “considered
to be true and legal.” Id. at 4 (citing P.R. Laws Ann. tit. 4, § 2002;
id. tit. 31, § 3273). For legal purposes, whoever wishes to contest
the contents of an «escritura pública» has the burden of proof. Id.
In real property transactions, a certified copy of the “escritura
pública” must be filed in the Registry of Property. Id. at 8. At that
point, the document receives the pertinent protection under Puerto
Rican law, including the presumption that the property owner of
record is in possession of the property, as well as protection for third

48a
Appendix B
bounded on the north by Lot 25, on the south by Lot 23, on
the east by the ocean, and on the west by Lot 22. PX 420
at 11. Lot 25 was described as bounded on the north by
Lot 26 (owned by Antonio Lugo), on the south by Lot 24,
on the east by the ocean, and on the west with Lot 21.
Mr. Mulero later registered other property he owned
on Culebra, which included Lots 21 and 23 from the 1887
plan, as well as half of Lot 74 (bordering Lot 23 to the west)
and Lot 75 (bordering Lot 23 to the south). PX 420 at 11-12;
Pls.’ Post-Trial Br. App. A, at 6 (summarizing properties
owned by Mr. Mulero and their corresponding entries
in the registry). In April 1903, Mr. Mulero executed a
Deed of Grouping which combined all of his property on
Culebra into one property, designated as Property No. 117
(“Buena Vista”) in the Registry of Property. PX 410T at
4-6 (Registry of Property Entry for Property No. 117);
Tr. 773:16 to 774:5 (Martinez). The Buena Vista tract
was described in the deed as comprised of 346.5 cuerdas
(137.5 hectares) bounded on the south and east by the
ocean, on the north by property owned by Antonio Lugo,
and on the west by property owned by Francisco Garcia.
PX 410T at 5.
3.

Transfer of property from Escolástico Mulero
to the United States Navy.

On June 28, 1903, a representative of the Navy, David
Chadwick, signed a deed of sale to purchase tracts of
parties relying on a document in the Registry of Property against
future challenges. Id. at 8-9 (citing P.R. Laws Ann. tit. 30, § 2355;
id. tit. 31, § 1872).

49a
Appendix B
land on Culebra from two married couples: Mr. Mulero
and his wife, and Demetria Felix Guadalupe and her
husband. PX 12T (Deed of Sale No. 130). Mr. Chadwick,
Mr. Mulero, and the Guadalupes met with a notary and a
translator at Camp Roosevelt to sign the deed. Id. at 2-3.
Mr. Chadwick did not know Spanish and the notary did not
know English. Id. at 3. In addition, Mr. Mulero could not
read or write Spanish, nor did he know English, and his
wife could not see. Id. at 11. As a result, the deed indicated
that Ricardo Amado was appointed by the Muleros to
“verify” its contents. Id.
The description of Mr. Mulero’s land (Buena Vista or
Property No. 117) in the deed was consistent with, but not
identical to, the description in the Deed of Grouping from
May 1902. Compare PX 12T at 3-4, with PX 410T at 4. The
deed described the land being purchased by the Navy as a
2.25-acre tract bounded on the north by property owned
by Antonio Lugo and the ocean at one end, on the east
by the ocean, and on the south and west by Property No.
117 from which the tract was segregated. PX 12T at 4-5.
The deed did not identify a lot or property number within
Property No. 117 where the 2.25-acre tract was located.
However, based on this description, the 2.25-acre tract
would be located at the northeast corner of Property No.
117, within the boundaries of the former Lot 25. The deed
also recited a series of “bearings” outlining the perimeter
of the tract based on the location of a “cannon emplacement
mounted on the North side of” the tract, but it provided
no further information on the location of the cannon
emplacement, and this emplacement has not been located
by the government or the Katzins. Id. at 5; Tr. 208:8 to

50a
Appendix B
211:6 (Test. of Dr. Richard Lewis Katzin) (discussing
unsuccessful efforts by the Katzins and FWS to locate
the emplacement). The deed specified that the two tracts
purchased from the Guadalupes were located within Lot
73 from the original 1887 survey plan. PX 12T at 5. Lot
73 apparently had not been grouped with other properties
or otherwise changed since its original adjudication, since
it was described in the deed as being 25 square hectares
and bordered on the north by Lot 72 and on the east by
Lot 10, consistent with the 1887 survey plan. Id.; PX 2T.
The deed was signed by the notary, Antonio de Aldrey,
on June 28, 1903, a Sunday, and it was recorded at the
Notary Office and the Property Registry the following
day. PX 12T at 12; PX 411T (Registry of Property Entry
for Property No. 120). Like the deed, the property registry
entry for the 2.25-acre tract (designated as Property No.
120) described it as “bounded to the North by [property
owned by] Mr. Antonio Lugo and the sea on a tip of land;
to the East by the sea; and to the South and West by the
main property from which it is segregated.” PX 411T at
4. The property registry record referenced a deed signed
on June 28th at Camp Roosevelt; it did not refer to any
other written agreement between the parties. Id. at 5.
Mr. Chadwick and Mr. Mulero also ostensibly signed
an “Agreement of Sale” on June 29, 1903, a day after the
deed was signed, describing the sale of the 2.25-acre
tract of land to the Navy. DX 42 (Agreement of Sale).
The agreement contains a similar metes description
of the 2.25-acre tract, but specifies that it is located in
“Plot Number 24, Official Chart of Culebra, U.S.W.I.,”

51a
Appendix B
presumably referring to Lot 24 from the 1887 survey plan.
Id. at 1. Unlike the deed, the agreement of sale was written
in English only and it did not indicate that anyone was
present to read, translate, or otherwise verify the contents
on Mr. Mulero’s behalf. The agreement and the deed
have similar stamps with the year 1903, but the notary
who signed the deed (Antonio de Aldrey) did not sign the
agreement of sale. Id. at 2.6 Mr. Mulero’s name is written
in script in the signature block of the agreement, below
the handwritten word “His” and above the handwritten
word “Mark,” with a cross or plus sign between the words
“Escolastico” and “Mulero.” Id.
4.

Further segregation and sale of Mr. Mulero’s
property.

Mr. Mulero died in May 1904, and his widow, Tomasa
Rivera, registered Property No. 117 as community
property in the name of herself, her children, and her
grandchildren in accordance with Mr. Mulero’s will.
PX 410T at 9-11. Ms. Rivera and the other heirs segregated
300.5 cuerdas (approximately 117 hectares) from Property
No. 117 and sold the segregated property (Property No.
167) in October 1909 to Enrique Bird Arias. PX 412T
at 4-6 (Property Registry Entry for Property No. 167).
The property registry entry noted that Property No. 117,
from which Property No. 167 was being segregated, was
344.25 cuerdas in total, which reflects the sale of 2.25
acres to the Navy the previous year. Id. at 4. Property
6. There is one illegible witness signature at the bottom of the
agreement of sale, but the witness’s name does not match any of the
parties or witnesses described in the deed. DX 42 at 2.

52a
Appendix B
No. 167 was described as bounded on the north by the
property of Antonio Lugo; on the south by the property
of Jose Navarro, the ocean, and Property No. 117; on the
east by the ocean and land owned by the U.S. Navy; and
on the west by the property of Francisco Garcia. Id. This
description places former Lot 24 within Property No. 167.
In 1914, Mr. Bird Arias sold Property No. 167 to a
commercial partnership (Mercantil de Fajardo, Hijos de
J. Bird León), of which he and his brother Arturo Bird
Arias were the only partners. PX 412 at 10. Arturo Bird
Arias died in 1917 and his widow sold her interest in the
partnership to Enrique Bird Arias. Id. at 12-14. After
Enrique Bird Arias died in 1919, his widow separated
Property No. 167 from the partnership and registered
it in the name of herself and Enrique’s heirs. Id. at 1819. In 1923, Property No. 167 fell into receivership and
was sold at auction to Charles W. Fowler. Id. at 27-28.
Mr. Fowler sold the property the following year to The
Vieques Association in New York. Id. at 29-34. It was then
consolidated with other property on Culebra owned by
the Association and became tract number 6 of Property
No. 228. Id. at 35; PX 413T at 6-7 (Property Registry
Entry for Property No. 228). The description of tract 6
in the property registry entry matches the description
of Property No. 167, including that it was bordered on
the east, in part, by property of the U.S. Navy. Compare
PX 413T at 7, with PX 412T at 4. In 1928, Property No.
228 was sold to the United Porto Rico Sugar Company
and consolidated with other property to form Property
No. 249. PX 413T at 22-24; PX 415T at 4 (Property
Registry Entry for Property No. 270). Property No. 167

53a
Appendix B
became tract number 76 of Property No. 249. PX 415T
at 4. Property No. 249 was sold at auction in 1934 to the
trustees of the Eastern Sugar Associates. Id.
5.

Plaintiffs’ acquisition of interests in the
subject property.

In 1940, the Eastern Sugar A ssociates tr ust
segregated tract 76 from Property No. 249 and sold it to
Pilar Gonzalez Alhoyo. PX 415T at 4-7, 11. Tract 76 became
Property No. 270, with the same boundary description as
the original Property No. 167: bounded on the north by
the property of Antonio Lugo; on the south with property
of Jose Navarro, the ocean, and the property from which
it was segregated; on the east with the ocean and lands
of the U.S. Navy; and on the west with the property of
Francisco Garcia. Id. at 4. When Mr. Gonzalez died in
1963, Property No. 270 passed to his heirs, including two
of his granddaughters, Ms. Winters and her sister, Luz
Kjeldsen McLaughlin. Id. at 11-14.
Mr. Gonzalez’s heirs hired a surveyor, Alfredo
Quiñones Clemente, to survey Property No. 270 in order
to subdivide it among the heirs. DX 28T; DX 29T (Stadia
Survey Plat, Alfredo Quiñones Clemente); Tr. 29:15 to
52:7 (Test. of Ms. Winters). Ms. Winters had a copy of the
Quiñones survey in her possession at the time the present
case was filed. Tr. 51:25 to 52:7 (Winters). The survey plat
appears to include two separate boundary lines around
the property, the first (outer boundary) consisting of
points numbered 1-69, and the second (inner boundary)
consisting of points with the letters A to Z, A1 to Z1, and

54a
Appendix B
roman numerals I to XXX (for a total of 82 points). DX 29T.
The plat does not explain why there are two separate
boundaries or how they were derived, but the total area
of the property was calculated using the points from the
outer boundary. Id. This calculation determined that
Property No. 270 consisted of 344.6254 cuerdas, which is
larger than the size described in the deed for Property
No. 270 when it was re-segregated from Property No. 249
in 1940 (300.5 cuerdas). Compare DX 29T with PX 415T
at 4. The survey plat also depicted various contour lines
along the coast of the property. DX 29T.
The Quiñones survey’s depiction of Property No. 270
did not include the peninsula to the east of former Lot 24.
DX 29T. Instead, there is a straight boundary line between
points 26 and 27 of the outer boundary that excludes the
peninsula. Id. There is also a break in the coastal contour
lines in the area where the peninsula would be located.
Id. Neither the outer boundary nor the inner boundary
appears to reach the coastline of the property, leaving a
thin coastal strip around the property. Id. The seaward
side of this strip is annotated with markings such as
“mangrove,” “bayahonda tree,” and “almacigo tree.” Id.
On one tip of land on the southeastern side of the property,
consistent with former Lot 76 on the 1887 survey plan
and next to the label “Pta. del Viento,” the coastal strip
is labeled “Navy.” Id.

55a
Appendix B

DX 29T (inset).
Another surveyor, José Gómez Velázquez, was hired to
prepare a subdivision plan for the property based on the
Quiñones survey. DX 30T (Subdivision Plat, José M. Gómez
Velázquez); Tr. 52:21 to 54:7 (Winters). The subdivision plat
uses the outer boundary line of the Quiñones survey, with
points numbered 1-69. DX 30T. The plat shows the Pilar
Gonzalez property divided into five parcels (numbered
Parcels 2-6) of approximately 67.5 cuerdas each, plus a small

56a
Appendix B
lot in the middle (Parcel 1) consisting of approximately 2.88
cuerdas of “common land.” Id. Parcel 4 roughly corresponds
to the location of former Lot 24 from the 1887 survey plan,
but like the Quiñones survey, it does not encompass the
peninsula along its eastern border. DX 30T.7

DX 30T (inset).
7. A subsequent land study commissioned by the government
in 2014 determined that the area depicted for Parcel 4 in the Gómez
survey was 67.5034 cuerdas. DX 31 at 5; Tr. 1368:19 to 1369:10 (Test.
of Javier E. Bidot Cruz). This measurement did not include the
peninsula to the east of the area depicted. The size of the peninsula
was determined to be approximately 15 cuerdas, not inclusive of
the mangroves growing along the tidal areas of the property. Tr.
1371:7-14, 1373:7 to 1377:19 (Bidot).

57a
Appendix B
The Pilar Gonzalez property was partitioned in 1967
through a deed executed before a notary (Deed No. 4).
DX 28T. The description for each of the six parcels stated
the size of the parcel “pursuant to the survey performed
by engineer José M. Gómez Velázquez.” Id. at 9-10. Ms.
Winters was one of the signatories to the deed. Tr. 41:19
to 42:20 (Winters) (discussing PX 51, which is the same
document contained in DX 28 and DX 28T). Although prior
to the subdivision, the property registry record for the
Pilar Gonzalez property (Property No. 270) indicated it
was bounded on the east by the ocean and property of the
U.S. Navy, PX 415T at 4, none of the descriptions of the
partitioned parcels in the deed mention a border with U.S.
Navy lands, DX 28T at 9-10. The lot designated as Parcel
4 was the lot allocated to Ms. Winters and Luz Kjeldsen
McLaughlin as their inheritance from the estate of Pilar
Gonzalez. DX 28T at 11; Tr. 41:19-24 (Winters). Parcel 4
was described in the deed as 67.5034 cuerdas bounded
on the north with Parcel 5, on the south by Parcels 1 and
3, on the east by the ocean, and on the west with Parcels
1 and 6. DX 28T at 9-10. Parcel 4 was recorded in the
property registry as Property No. 340, with the same
size and boundary descriptions as contained in the deed
of partition. PX 416T at 4-6 (Property Registry Entry for
Property No. 340).
After the partition of Parcel 4 in 1967, Ms. Winters paid
property taxes to Puerto Rico’s Municipal Tax Collection
Office (“CRIM”) based on a property size of 33.75 cuerdas,
which corresponded to her 50% ownership of the parcel.
DX 352T (CRIM Notification and Demand for Payment
of Real Property Tax, Jan. 1, 2003); Tr. 82:16 to 86:13

58a
Appendix B
(Winters). CRIM keeps records of cadaster maps showing
the parcels being taxed, along with their corresponding
tax identification numbers. Tr. 617:3-17 (Test. of Augusto
Fidel Gandía Ojeda). The CRIM cadaster maps from 1978,
2000, and 2013 show Parcel 4 (tax identification number
476-000-005-01) similar to how it was depicted in the
Quiñones survey, although its eastern border appears to
extend further into the peninsula. DX 61T (CRIM Map for
Appraisers No. 476) (last updated May 19, 2000); DX 62T
(CRIM Map for Appraisers No. 476) (stamped July 22,
1978); DX 303T (CRIM Cadaster Map No. 476) (date
of printing Apr. 16, 2013). 8 However, all three cadaster
maps show a separate parcel of land on the peninsula
to the east of Parcel 4, with a separate tax identification
number (476-000-005-02). DX 61T; DX 62T; DX 303T. On
the cadaster map from 2000, the word “Navy” is written
in the peninsula area; there is no such label on the other
two maps. DX 61T. The 1951 appraisal card for the parcel
on the peninsula identifies the occupant of the parcel as
“U.S. Navy,” and indicates that the parcel is “exempt”
from appraisal. DX 37T at 2, 4. The CRIM cadaster maps
also appear to depict a thin strip of land along the coast
that is separated from the parcels with tax identification
numbers. DX 61T; DX 62T; DX 303T.

8. The 2000 and 2013 maps also depict an extension of the
northern border of Parcel 4 into what would have been Parcel 5 in
the Quiñones survey. DX 61T; DX 303T.

59a
Appendix B

DX 61T (inset of the 2000 cadaster map).
In 1971, Harry Grayson, Herbert Katzin, and Annette
Katzin purchased Luz Kjeldsen McLaughlin’s 50% interest
in Parcel 4. PX 416 at 6-9. As a result of this purchase,
Mr. Grayson owned a 25% interest in Parcel 4, the Katzins
together owned a 25% interest, and Ms. Winters owned a
50% interest. Id. at 6-7. Contemporaneously, Mr. Grayson
and the Katzins jointly purchased Parcels 2 and 3, which
covered the southern part of the property previously
owned by Pilar Gonzalez. Tr. 1222:25 to 1223:8 (Test.

60a
Appendix B
of Ernesto A. Meléndez Perez). Mr. Grayson and the
Katzins hired an attorney, Ernesto A. Meléndez Perez,
and a surveyor, Fred Fletcher, to help them further
subdivide Parcels 2 and 3 into smaller lots so that they
could be sold and developed for residential purposes. Tr.
1229:15 to 1233:4 (Meléndez). In 1974, Parcels 2 and 3
were first grouped into one large parcel of approximately
135 cuerdas and then subdivided into 24 smaller lots of
approximately five cuerdas each. DX 205 at 1 (Letter from
Meléndez to Jerry Vits, U.S. Fish & Wildlife Service,
May 30, 1987); Tr. 1231:18 to 1233:4 (Meléndez).9 As part
of this effort, Mr. Meléndez requested from the mayor of
Culebra a copy of Navy Works Map 323 from 1945, which
among other things showed a “gun emplacement” on the
tip of the peninsula of former Lot 24. DX 39T (Letter from
Meléndez to the Hon. Ramón Feliciano, Mayor of Culebra);
DX 79T (Navy Works Map 323). Herbert Katzin gave a
copy of this Navy map to Ms. Katzin at some point before
his death. Tr. 172:8 to 173:7 (Test. of Ms. Katzin).
Mr. Fletcher also surveyed Parcel 4 for the purpose
dividing it in half, with Ms. Winters’ property to the
north and the property jointly owned by Mr. Grayson and
the Katzins to the south. DX 32 (Letter from Grayson to
Fletcher, Mar. 30, 1973); PX 422 at 5 (Surveyor’s Report,
Benigno Rodríguez Burgos); Tr. 1233:5-8 (Meléndez). Mr.
Grayson provided Mr. Fletcher a prior survey of Parcel 4,
noting that “[t]he problem is that the east boundary of the
existing survey does not follow the contour of the coastline
9. These 24 lots later became known as “Punta del Viento
Estates.” See, e.g., DX 51 at 5 (conservation easement agreement for
the seaside portion of the lots formerly comprising Parcels 2 and 3).

61a
Appendix B
exactly as it should, since the deed reads that the property
is bounded by the water.” DX 32. Mr. Grayson also stated:
We have seen Navy maps indicating that the
Navy lays no claim to this property beyond
the standard maritime zone and legal counsel
tells us that there should be no problem in that
direction. . . . [Parcel] #4 is currently owned
by my partner [Dr. Katzin] and myself jointly
with Mrs. Rosemary Winters of Suffern, N.Y.
When it is divided, Mrs. Winters has agreed to
take the north half and we will take the south
half so that our holding will be contiguous with
the rest of our farm [Parcels 2 and 3]. But it is
absolutely essential that the amount of actual
coastline as well as the amount of acreage
behind it be exactly equal. We also feel that a
final true survey will yield somewhat more than
a total of 67.5 cuerdas.
DX 32 (emphasis in original).
Unlike the Quiñones and Gómez surveys, the Fletcher
survey depicts a peninsula to the east of Parcel 4. PX 422T
at 5. The survey also reports the size of Parcel 4 as 70.8598
cuerdas, which is approximately 3.3 cuerdas larger than
the size reported in the deed of partition and the property
registry entry for Property No. 340. Compare id. with
DX 28T at 9-10 and PX 416T at 4. When Mr. Fletcher
produced the new survey in 1974, he noted next to his
signature that the “property line [was] taken as shown by
Mr. Harry Grayson.” PX 422 at 5. Mr. Grayson and the

62a
Appendix B
Katzins wrote to Mr. Fletcher in September 1974 to say
they were “very much disturbed” about this statement in
the survey legend. DX 35 (Letter from Mr. Grayson and
the Katzins to Mr. Fletcher, Sept. 2, 1974). The owners
also noted that it appeared that Mr. Fletcher had “erased
and replaced” a line leading to point 64, which appears at
the southeast corner of the property. Id. The letter stated
that Ms. Winters would not agree to the parcel division
and the owners would not pay Mr. Fletcher in full until
these changes were made. Id. Annette Katzin sent another
letter to Mr. Fletcher in November 1974 reiterating these
concerns and asking him to change the legend to state
that the boundary lines were derived from the Gómez
survey. DX 36 (Letter from Annette Katzin to Fletcher,
Nov. 17, 1974). Despite these objections, it does not appear
that the legend on the Fletcher survey was changed. The
subdivision of Parcel 4 was not completed, and the zoning
law was later changed so that Parcel 4 was considered
“very low-density,” meaning that it could not be developed
in parcels of less than 25 cuerdas. Tr. 1429:6-20 (Test. of
Jose Dapena Iglesias); Tr. 480:3-23 (Test. of Sandra E.
Wagner); Tr. 1231:25 to 1233:6 (Meléndez);

63a
Appendix B

PX 422 at 5 (inset of Fletcher survey).
Herbert and Annette Katzin acquired Mr. Grayson’s
interest in Parcel 4 in 1978. PX 416T at 9. Herbert Katzin
died in 1995, leaving his interest in Parcel 4 to Annette
Katzin. Am. Compl. ¶ 44. In 2004, Annette Katzin
transferred her interest in Parcel 4 to Ms. Katzin and Dr.
Katzin. DX 70 (Assignment of Property Interest, May 18,
2004). As a result of these transfers, Ms. Katzin and Dr.
Katzin own an undivided 50% interest in Parcel 4, and
Ms. Winters owns the remaining 50% interest.

64a
Appendix B
B. U.S. Government Records of Properties on Culebra
1.

Records of properties controlled by the Navy.

In 1936, the Navy’s Judge Advocate General responded
to an inquiry from the Department of the Interior’s
Division of Territories and Island Possessions about
“the exact portions” of property on Culebra “included
within the Naval Reservation set apart by the President’s
Proclamation of June 23, 1903.” PX 31 at 1 (Letter from
Judge Advocate General of the Navy to the Department
of the Interior, May 1, 1936). The letter indicated that
among other properties, the United States had acquired
four parcels of land on which “gun mount platforms were
erected.” Id. This list included a 2.25-acre tract on “Lot
24” acquired from Mr. Mulero in 1903. Id. at 2. It also
included a gun mount site on Lot 73 acquired from the
Guadalupes at the same time. Id.
In 1937, the Navy published a manual of real estate
controlled by the Navy, including land on Culebra. DX 6
(Dept. of the Navy, Federal[ly] Owned Real Estate Under
the Control of the Navy Dept.). It stated that the Navy
had purchased certain properties to be used as gun
mounts, including a 2.25-acre tract “in lot 24” acquired
“from Escolastico” in 1903. Id. at 314. The manual also
listed eleven lots (Lots 83-92 and a lot designated as “SW
Cav”) that were considered public lands reserved for naval
purposes, totaling approximately 2400 acres. Id. at 313. A
footnote to this list contained the following caveat:

65a
Appendix B
Extent of public lands within area set aside by
foregoing Executive orders necessarily depends
on amount of privately owned lands within said
area at time it was acquired under [the Treaty
of Paris]. Investigation of local records has not
been completed, so the foregoing information
concerning Culebra is necessarily tentative
(Dec. 1, 1936).
Id. at 313 n.2. The manual further stated that the public
lands also included “a narrow strip of shore land running
from the northeast corner of lot no. 90 on the north side of
Culebra Island to lot no. 92 on the extreme south end of
the island.” Id. at 314. The manual’s descriptions of Lots 90
and 92, as well as the narrow strip of land running along
the coast between these two lots, are consistent with the
properties depicted in the 1887 survey plan. Compare
id. at 314, with PX 2T (showing the locations of Lots 90
and 92 and a narrow strip of separately demarcated land
along the eastern and southern coast of the island). In
other respects, however, the lot descriptions differ. For
example, the manual lists “Lot 89” as comprising 199.25
acres, whereas the 1887 survey plan indicates Lot 89 was
a 3.7-hectare (9.14-acre) mangrove swamp. Compare DX 6
at 313, with PX 3T at 12.
Separately, the U.S. Department of Interior’s Puerto
Rico Reconstruction Administration (“PRRA”) prepared
a survey map of Culebra in 1937. DX 9 (Map of the Island
of Culebra, Sept. 2, 1937).10 The map appears to depict
10. The Puerto Rico Reconstruction Administration was
established in May 1935 through Executive Order No. 7057, as
part of the Emergency Relief Appropriation Act of 1935, Pub. L.

66a
Appendix B
lots within Culebra consistent with the lots on the 1887
survey plan. Compare DX 9 with PX 2T. The map’s legend
indicates that small numbered polygons within some of the
lots “indicate[] gun mounts.” DX 9. One such polygon, with
the number 7 inside of it, is on the peninsula to the east of
Lot 24. Two similar polygons numbered 4 and 5 are in an
area labelled Lot 73B, which corresponds to the southern
portion of Lot 73 previously owned by the Guadalupes
when they transferred two tracts to the Navy in 1903.

DX 9 (inset).
74-11, 49 Stat. 115 (1935). It was created as an agency within the
Department of the Interior “[t]o initiate, formulate and supervise
a program of approved projects for providing relief and work relief
and for increasing employment within Puerto Rico.” Exec. Order
No. 7057 (1935).

67a
Appendix B
The Navy prepared another property graphic in 1947
showing three gun mount sites on Culebra. DX 11 (Parcels
Acquired for Gun Mounts by the U.S. Gov’t). The graphic
showed an area of land marked “Parcel Buena Vista” and
with the number 7 in the middle, which appeared to connect
with Lot 24 on its northwest side, and which was labeled
“Navarro Pt.” on its southeast tip. The southeast tip of the
peninsula to the east of Lot 24 on the 1937 PRRA map was
also labeled “Navarro Pt.” DX 9. The 1947 graphic indicated
that “Parcel Buena Vista” was 10.01 acres in size. DX 11. It
also showed two points marking the corners of the border
with Lot 24. In the mid-1990s, a FWS representative, Billy
Raspberry, observed a concrete marker at the location
marked by the number 1 on the 1947 graphic. Tr. 1096:23 to
1098:11 (Test. of Charles Leon McGee, U.S. Fish & Wildlife
Service (retired)). The concrete marker had “USN 1945”
inscribed in the concrete and an iron bar running through
the middle. DX 10 (Picture of Concrete Monument); Tr.
1097:13-19 (McGee). The two other properties included on
the 1947 graphic were labelled “Parcel Madame Blanco”
(number 4) and “Parcel Carenero” (number 5). DX 11.
Both parcels appeared to fall within Lot 73B, the southern
portion of Lot 73 previously owned by the Guadalupes.
Compare DX 11 with DX 9 (PRRA map) and PX 2T (1887
survey plan).
In 1968, the Navy produced another real estate map
of Culebra. DX 15 (U.S. Naval Station Roosevelt Roads,
Culebra Island Real Estate Summary Map). The map
showed several properties on Culebra marked with the
number 1, including areas consistent with Lots 81-92
from the 1887 survey plan, as well as a coastal strip of

68a
Appendix B
land running along the southern and eastern coast of the
island also consistent with the strip of land depicted on the
1887 plan. Compare DX 15 with PX 2T. The map described
these properties as a fee simple transfer of land through
the Presidential Proclamation of 1903. DX 15. The map
also showed an area of land within the peninsula to the
east of Lot 24, marked with the number 6, as a 2.25-acre
tract purchased through Deed No. 130 on June 28, 1903. It
showed four similar areas acquired via deed on or around
the same date, including two tracts numbered 4 and 5 that
are consistent with the tracts previously depicted in Lot
73 or 73B.

DX 15 (inset).

69a
Appendix B
2.

Transfer of certain interests from the Navy to
the U.S. Fish and Wildlife Service.

In 1971, the Senate Committee on Interior and
Insular Affairs’ directed the Secretary of the Interior to
prepare a report on Culebra identifying “the highest and
best use or mix of uses of the island’s natural resources,”
with a view to establishing fish and wildlife refuges or
recreational areas. DX 13 (Resolution of the Sen. Comm.
on Interior and Insular Affairs (June 16, 1971)). In
response, the Department of the Interior, in partnership
with the Puerto Rico Department of Natural Resources
and the Puerto Rico Planning Board, submitted a plan to
the Senate Committee in October 1973. DX 1. The plan
included a map indicating the “present status of federal
land” on Culebra. Id. at 22. The map showed a strip of
land along the eastern and southern coast of the island
that was “recently excessed by the Navy,” including some
of the peninsula at the eastern side of Parcel 4. Id. The
plan also noted that
The holdings of private owners on Culebra . . .
are based on deeds given after 1887 by the
Crow n [of Spain]. A lthough these deeds
established some lot boundaries by reference
to the 1887 survey map, they established others
without explicit reference to the map. This is
frequently true of boundaries along the coast.
As a result, although there is no doubt that
the Federal government owns the maritimeterrestrial zone, there is uncertainty about the
landward boundary of the zone. Navy claims

70a
Appendix B
are based on the 1887 map, but some private
owners claim that their deeded holdings extend
nearer to the sea th[a]n the boundary shown
on that map. Lawsuits raising the issue are
currently pending before both Federal and
Commonwealth courts.
Id. at 25. As a result, the plan stated that “[t]itle and
boundary disputes render any quantification of land
ownership in Culebra uncertain,” and it reported federal
land ownership in terms of a “best available estimate.”
Id. at 27.

Id. at 22.
Contemporaneously, the Secretary of Defense
announced that all Navy operations on Culebra would end
by July 1975. DX 1 at 2. In July 1972, the Navy prepared
a report of excess real property listing real estate on

71a
Appendix B
Culebra that the Navy had no need to hold. DX 132
(Report of Excess Real Property, July 5, 1972). The excess
property included approximately 252 acres “comprising 7
linear miles of coastline . . . extending from a point south
of the northwest peninsula to the Navy’s ‘Camp’ area,” and
another 294 acres “comprising 9.5 linear miles of coastline
extending from the ‘Camp’ area around the eastern end
of the island to the Navy’s ‘Observation’ area.” Id. at
1-2. The foregoing coastal areas were identified as part
of “Tract 1” on the 1968 real estate map (DX 15). Id. at
2, 9. The excess property also included “five former gun
mount sites” (13.83 acres total) identified on the 1968 map
as Tracts 2-6. Id. at 1-2, 9-11. Tract 6 was described as
approximately 2.25 acres in size comprising “a portion of
the property identified as Lot No. 24 on the Official Chart
of Culebra Island,” and “bounded on the north, east and
south by the seacoast and on the west by the principal plot
from which it was segregated.” Id. at 11.
In 1973, the U.S. Congress authorized funds for the
relocation of Navy “ship-to-shore and other gun fire
and bombing operations” from the northwest peninsula
of Culebra. An Act to Authorize Certain Construction
at Military Installations, Pub. L. No. 93-166, § 204, 87
Stat. 661 (1973). These funds were conditioned on the
“conclusion of a satisfactory agreement to be negotiated
by the Secretary of the Navy . . . with the Commonwealth
of Puerto Rico” ensuring that the Navy was provided
with an appropriate substitute location free of any
activity that would interfere with these operations. Id.
While this agreement between the Navy and Puerto Rico
was being negotiated, Puerto Rico entered into annual

72a
Appendix B
license agreements to use Navy-controlled properties
on Culebra in exchange for its agreement to “accept all
responsibilities and obligations for the maintenance and
protection of the properties.” DX 17 at 4-12 (License
Agreement Between the United States of America and
the Commonwealth of Puerto Rico (Aug. 27, 1976));
DX 18 (License Agreement Between the United States of
America and the Commonwealth of Puerto Rico (Nov. 7,
1979)); DX 155 at 3-10, 17-22 (License Agreement Between
the United States of America and the Commonwealth of
Puerto Rico (Nov. 7, 1981)). These license agreements
included descriptions of twelve parcels purportedly owned
by the U.S. government, using lot numbers based on the
1887 survey plan. E.g., DX 17 at 5-10. The descriptions
of Parcels 2, 8, 9, 10, 11, and 12 all indicated they were
“coastal strips” along the island. E.g., id. at 6-9. Parcel
12 is described as a strip running from the southwestern
corner of Lot 71 around the southern and eastern coast
of the island to the northwestern corner of Lot 37, which
would include the coastal strip to the east of Lot 24. Id. at
9. The agreements also include five tracts within Parcel
7 that are described as areas “formerly known as Gun
Mounts,” totaling 13.83 acres. Id. at 6. Tract 5 of Parcel 7 is
described as approximately 2.25 acres in size, comprising
a portion of Lot 24, and “bounded on the north, east and
south by the seacoast and on the west by the principal plot
from which is was segregated.” Id. at 8. It also contains
a bearings description starting from the center of the
purported gun mount, similar to the bearings description
contained in the 1903 deed with Mr. Mulero, as well as
the agreement of sale signed a day later. Compare id.
at 8, with PX 12T at 5, and DX 42 at 1. A map attached

73a
Appendix B
as Exhibit A to the agreements depicts these properties
on the island. DX 19 (Exhibit A to DX 17 (License NF®33738 (Aug. 27, 1976)).

DX 19 (inset).
When the federal lands on Culebra were reported
as “excess” by the Navy in 1972, the General Services
Administration (“GSA”) assumed responsibility for the
disposition of these lands. DX 132; PX 110 (Memorandum
from FWS Regional Director Regarding Meeting with
GSA Concerning Culebra, Jan. 24, 1975). In 1975, the
FWS applied for transfer of certain lands on Culebra,
including “121.04 acres on the Island of Culebra.” PX 110.
GSA accepted this transfer application and directed that

74a
Appendix B
Navy Map No. 323 be used in conducting the transfer. Id.
This map was based on the 1887 survey plan of Culebra
and included a highlighted area denoting Navy ownership
of a coastal strip around the southern and eastern coast
of the island, including around the peninsula to the east
of Lot 24. DX 40T (Navy Map 323). The map also included
an annotation on the peninsula indicating a location for a
gun emplacement. Id.
In March 1980, FWS sent a letter to the Director
of GSA’s Real Property Division providing “legal
descriptions” of additional land that was to be transferred
to the Commonwealth of Puerto Rico and to FWS. DX 254
(Letter from FWS Regional Director to Director, GSA
Real Property Division (Mar. 7, 1980)). The transfer
to FWS involved a total of 776.35 acres, described as
tracts 1a, 1d, 1e, 1f, and 1j, which were to become part
of the National Wildlife Refuge System. Id. at 1, 7-9.
The description of tract 1e indicated that it was a coastal
strip running from the southwest corner of Lot 76, along
the eastern boundary of Lots 23, 24, and 25, and on to
the southeast corner of Lot 77, for a total of 53.78 acres.
Id. at 10.11 The description of tract 1f indicated that it
was a portion of Lot 24 of approximately 2.25 acres,
consistent with the description of the former gun mount
site in Tract 5 of Parcel 7 in the license agreements with
Puerto Rico, and with a bearings description similar to
11. This description of tract 1e represents a portion of the
coastal strip in Parcel 12 of the license agreements with Puerto Rico.
The remainder of Parcel 12 was represented by tract 1j (transferred
to FWS) and tracts 1c and 1g (transferred to Puerto Rico). DX 254
at 4-5, 10.

75a
Appendix B
the agreement of sale signed the following day, and to
some extent correlating to the bearings in the 1903 deed
with Mr. Mulero, although not to the lot location in that
deed. Compare id. at 11, with DX 17 at 8, and PX 12T at
5, and DX 42 at 1.
That same month, in accordance with the National
Environmental Policy Act, 42 U.S.C. §§ 4321-4370h, FWS
published notice in the Federal Register that it would
prepare a Draft Environmental Impact Statement on
the disposition of excess Navy lands. Intent to Prepare
an Envt’l Impact Statement on the Proposed Disposition
and Administration of Lands on the Islands of Culebra
and Culebrita, 45 Fed. Reg. 16,358-01 (Fish & Wildlife
Serv. (Mar. 13, 1980)). FWS also advertised and held public
meetings in Culebra and San Juan in April 1980 to discuss
the proposed transfer. See DX 20T (Public Hearings to Be
Held Regarding the Transfer of Excess Federal Lands
in Culebra (Apr. 5, 1980)). Members of the public raised
various issues during those meetings, including challenges
to the U.S. government’s title to certain property on
Culebra. E.g., id. at 20, 22 (minutes from the meeting
in Culebra showing that residents questioned how FWS
acquired the lands and noting that certain residents of
Culebra had deeds showing title to these lands). There is
no record that the owners of Parcel 4 (at that time, Herbert
Katzin, Annette Katzin, and Ms. Winters) attended either
of these meetings.
FWS published the draft Environmental Impact
Statement in December 1980, including a map of the
property to be transferred. DX 21 (Draft Environmental

76a
Appendix B
Impact Statement, (Dec. 1980)); see also Availability of
Draft Envt’l Impact Statement, 45 Fed. Reg. 84,157-02
(Fish & Wildlife Serv. (Dec. 17, 1980)). FWS published the
final Environmental Impact Statement in October 1981;
the final statement included the same property transfer
map as in the draft. DX 22 (Final Environmental Impact
Statement, (Oct. 1981)); Availability of Final Envt’l Impact
Statement, 46 Fed. Reg. 50,421-01 (Fish & Wildlife Serv.
(Oct. 13, 1981)). The Record of Decision of the transfer
of land to FWS was published in the Federal Register in
March 1982. Record of Decision on Proposed Disposition
and Administration of Lands Declared Excess by U.S.
Navy on the Islands of Culebra and Culebrita in Puerto
Rico, 47 Fed. Reg. 11,114-02 (Fish & Wildlife Serv. (Mar.
15, 1982)). FWS accepted custody of the 776.35 acres of
land, including Tracts 1e and 1f, shortly thereafter. DX 149
(Letter from Regional Director, FWS to Acting Director,
Real Estate Division, U.S. Naval Facilities Engineering
Command (Mar. 25, 1982)). Tract le was defined according
to the Spanish 1887 survey plan and consisted of a thin
stip of land “beginning at the southwest corner of Lot 76”
of that plan and extending to “the east boundary of lots
23, 24, 25, and 26, and the south boundary of lots 33, 34,
and 77,” etc. DX 254 at 9 (capitalization omitted). Tract
1f was defined as a 2.25 acre plat of lot 24 and referred to
“the center of the gun mount located on the [n]orth side
of said [l]ot [n]o. 24.” Id. at 10.

77a
Appendix B

PX 288 at 4 (facsimile from John Beasley to Claudia Motta
(June 22, 2006)).
In 1985, FWS surveyed the property in its custody on
the eastern coast of Culebra, referred to as the “Culebra
National Wildlife Refuge.” DX 152 at 7 (FWS Contract
with E. Cividanes-Freiria & Associates, Mar. 29, 1985);
Tr. 1171:10 to 1177:4 (McGee). The survey contract
included placement of permanent monuments, such as an
“iron pipe or bar set in concrete,” at the corners of the
property. DX 152 at 8. The numbers of the monuments
were reflected in the survey plat. DX 59 (Survey Plat,
1985); Tr. 1180:15 to 1181:19 (McGee). The completed

78a
Appendix B
survey plat included boundary lines for tracts 1e and 1f.
DX 59. Tract 1f (the purported gun mount site) appeared
to be bounded by points 606, 607, 609, 610, and 611. Id.
Government representatives were able to locate some of
the 1985 survey monuments in 2012 and 2013, several of
which were accompanied by FWS signs indicating the
boundary of a National Wildlife Refuge. DX 31 at 10 &
Exs. 18, 29 (Expert Report of Javier E. Bidot); DX 263T
(Picture of National Wildlife Refuge Sign). An FWS
representative located a marker at point 606, but not the
other four markers for tract 1f. DX 31 at 10.
3.

Communication between the owners of Parcel
4 and FWS regarding property interests.

In March 1987, an attorney, Edward Borges, wrote
to the FWS Regional Director on behalf of Culebra
Enterprises Corporation and Melvin Mailloux, owners of
two contiguous parcels of land on Culebra north of Parcel
4. DX 204 (Letter from Edward Borges to FWS Regional
Director (Mar. 6, 1987)). In his letter, Mr. Borges stated
that while the boundary line in the 1985 FWS survey was
based on the 1887 survey plan of Culebra, this boundary
did not adequately serve the interests of FWS or the
property owners, since in some cases the FWS property
did not include “sensitive wetlands,” and it other cases
it included “property that is extremely high [beyond
the high water mark of the ocean] and which Culebra
Enterprises has considered that it owns.” DX 204 at 2. Mr.
Borges also noted that the “title documents” for Culebra
Enterprises indicated that the southern boundary was the
ocean. Id. Accordingly, Mr. Borges proposed an exchange

79a
Appendix B
of property that would resolve this “boundary dispute,”
giving FWS control over all the wetlands and the other
landowners ownership of the areas beyond the “Maritime
Zone, or the mean high-water mark.” Id.
Around the same time, Mr. Borges informed Herbert
Katzin of the proposed exchange and provided him
an aerial photograph with an overlay of the boundary
lines from the 1987 FWS survey. DX 205 at 3 (Letter
from Herbert Katzin to FWS Regional Director, Apr. 1,
1987); DX 208 (Aerial Photograph of “La Pela Bay”). In
April 1987, Herbert Katzin wrote to FWS, identifying
himself as the owner (or half-owner) of certain land with
reference to the survey markers, corresponding to the
eastern boundaries of Parcels 2, 3, and 4. DX 205 at 3.
Herbert Katzin stated that “our boundary situation has
many similarities to that of Culebra Enterprises and I
would like to explore with you the possibilities of a similar
solution.” Id. FWS responded in May 1987, stating that it
was still “evaluating the benefits” of Mr. Borges’ proposal,
and that it would consider Herbert Katzin’s proposal at
the same time. DX 206 (Letter from FWS Senior Realty
Officer to Herbert Katzin (May 11, 1987)). Herbert
Katzin’s attorney, Mr. Meléndez, responded to FWS a
few weeks later, reiterating that Herbert and Annette
Katzin were interested in resolving “the controversy with
the boundaries,” and providing the deeds for Parcels 2,
3, and 4, all of which indicated the property was bounded
by the ocean. DX 205 at 1. No agreement was reached at
that time with respect to these properties.

80a
Appendix B
Meanwhile, Herbert and Annette Katzin negotiated a
tentative agreement in 1989 to sell 22 of the 24 subdivided
lots from Parcels 2 and 3 and their 50% interest in Parcel
4 to Ramón Cacho. DX 45 (Purchase and Sale Agreement);
Tr. 1241:14 to 1242:8 (Meléndez). Mr. Cacho intended to
develop the property into a “residential and/or resort
type project.” DX 45 at 7-8. The total purchase price
for the properties was $2,500,000. Id. at 2. The draft
sale agreement stated that the property was being sold
subject to “any and all claims of the United States Fish
and Wildlife Service.” Id. The agreement was not signed
and the sale of the properties to Mr. Cacho was never
completed. Id. at 11; Tr. 1244:16-18 (Meléndez).
In June 1994, another attorney representing Herbert
and Annette Katzin, Miguel Cancio Bigas, wrote to FWS
asking for the official position regarding the boundary
between Parcels 2 and 3 and property claimed by FWS.
DX 46 (Letter from Miguel Cancio Bigas to FWS Regional
Office, June 27, 1994). The letter stated that Herbert and
Annette Katzin were “in the process of selling various
contiguous parcels of land” and that “it is reasonable to
expect that potential purchasers would eventually build
one house in each lot.” Id. at 1. The letter acknowledged
that there was a “maritime terrestrial zone” designated
for public use along the “coastal area bordering the seaside
lots,” and that this zone “belonging to the United States
was not transferred to the government of Puerto Rico as
part of the 1970’s transfer of lands.” Id. at 1- 2. Mr. Cancio
raised concerns, however, about “rumors” that FWS may
have a broader “public claim of ownership” to the “narrow
strip of land” represented by the 1887 survey plan. Id. at 2.

81a
Appendix B
Mr. Cancio stated that the border represented in the 1887
plan was “impossible to define and trace today.” Id. As a
solution, Mr. Cancio proposed that FWS follow the same
method as it did in 1987, where it stipulated in a federal
district court case, Martinez v. Junta de Planificacion de
Puerto Rico, 736 F. Supp. 413, 415 (D.P.R. 1990), that the
strip of land in the 1887 plan was equivalent to the legal
maritime terrestrial zone. Id. at 3.
The following month after Mr. Cancio’s letter, the
FWS Assistant Refuge Manager, Susan Rice, met with a
representative of Herbert and Annette Katzin to discuss
the boundaries claimed by FWS as they related to the
Katzins’ property. Tr. 1318:22 to 1319:10 (Test. of Susan
M. Rice, U.S. Fish & Wildlife Service (retired)). According
to Ms. Rice’s handwritten notes, the “Buena Vista Gun
Mount” was the “only problem area,” involving areas of
approximately 10 acres and 2.2 acres. DX 48 at 2 (Notes
of Susan Rice, July 7, 1994). Ms. Rice testified that she
understood the 10-acre area to be the peninsula on the
eastern side of Parcel 4 and the 2.2-acre area to be the
former gun mount site. Tr. 1318:18-25 (Rice). Ms. Rice’s
notes also indicated that the representative “want[ed] a
written thing to be able to sell [the] property,” and that for
the “mean-high tide” she would “walk with Félix and [the]
Katzins’ representative.” DX 48 at 2. Ms. Rice recalled
that the boundary dispute was not resolved at that time.
Tr. 1313:1-6 (Rice). The 1994 FWS Annual Narrative
Report for the Culebra Wildlife Refuge noted that FWS
personnel (including Félix López, a biologist) had visited
Culebra “to negotiate the refuge boundary in the western

82a
Appendix B
portion of the Puerto del Manglar Unit.” DX 49 at 62.12 It
also stated that Bill Mailloux, a “realty representative”
for landowners in the area, had “agreed upon a 20 meter
conservation easement behind the mutually determined
boundary which delineates the maritime zone,” and that
FWS would “attempt to obtain this same arrangement for
the rest of the unit.” Id. FWS stated, however, that the
easement agreement would not include “a 10 acre tract
currently in ownership dispute with Dr. Herbert Katzin,
and a 2.25 acre former military gun mount site.” Id.
In September 1995, Dr. Katzin and Ms. Katzin, as
trustees for Herbert and Annette Katzin, entered into an
agreement with the United States in which the government
quitclaimed all rights to the property beyond the maritime
terrestrial zone in former Parcels 2 and 3 (Lots 15, 17, 19,
22, 23, and 24) in exchange for a conservation easement
extending 20 meters beyond the maritime zone. DX 51T
at 4, 11-12 (Agreement of Exchange of Fee Interest for
Conservation Easement, Oct. 3, 1995).13 This agreement
did not apply to Parcel 4.

12. The “Puerto del Manglar Unit” is defined elsewhere in the
report as “a fringe of mangroves around a highly productive bay,”
presumably referring to the bay to the northeast of Parcel 4 labelled
as “Puerto del Manglar” on the 1887 survey plan. DX 49 at 56.
13. The agreement was signed by Dr. Katzin and Ms. Katzin
on September 29, 1995 in Atlanta, Georgia, but it was “protocolized”
in Puerto Rico by Mr. Meléndez the following month. DX 51 at 1-4.

83a
Appendix B
C. Plaintiffs’ Attempted Sale of Parcel 4 and the
Ensuing Dispute Over Ownership
1.

Listing of the property and contract with Mr.
Klaber.

Dr. Katzin, Ms. Katzin, and Ms. Winters entered into
a listing agreement with Sandra Wagner in May 2005
to sell Parcel 4 as one undivided property. DX 72 (Blue
Horizon Realty Listing Agreement, May 27, 2005). The
agreement described Parcel 4 as “[a]pproximately 67.5
cuerdas [of] raw land,” which is consistent with the size of
the property in the deed of partition and property registry
entry, and approximately 3.3 cuerdas smaller than the
size in the later Fletcher survey. Id.; compare PX 422T
at 5, with DX 28T at 9-10, and PX 416T at 4. The selling
price in the listing agreement was $4,725,000. DX 72. The
agreement specified that Alberic Colon, a neighboring
property owner, was a “[c]urrent prospective buyer[]” for
whom the provisions of the agreement (i.e., Ms. Wagner’s
commission) would not apply. Id.
On March 23, 2006, William Klaber signed a purchase
agreement to buy Parcel 4 for $4 million. PX 282 (Purchase
Agreement, Mar. 26, 2006). Mr. Klaber made a $50,000
earnest money deposit on the property, with the remainder
to be due at a closing scheduled for June 30, 2006. Id. at
1. The agreement stated that Mr. Klaber had the right
to assign the agreement “to an entity in which he is a
principal,” which in effect referred to a group of investment
partners with whom Mr. Klaber intended to develop the
property. Id.; Tr. 266:8-14, 278:11 to 282:12 (Test. of William
Klaber). Concurrently, Mr. Klaber and his partners also

84a
Appendix B
agreed to purchase two other lots owned by Dr. Katzin
and Ms. Katzin, Lots 8 and 12 in Punta del Viento Estates
(formerly Parcels 2 and 3). PX 459 (Agreement of Sale, Mar.
16, 2006); Tr. 296:15 to 297:11 (Klaber). Annette Katzin
and Ms. Winters were listed as the sellers and signed the
purchase agreement three days later. PX 282.
In early June 2006, Mr. Klaber asked his attorney,
Claudia Motta, to explore ways to “get . . . out of the deal” to
purchase Parcel 4 and get back the earnest money deposit.
Tr. 303:9-17 (Klaber). According to Mr. Klaber, he and his
partners had decided to back out of the deal because of
restrictions on development along the coast of Culebra,
economic conditions in Puerto Rico, and uncertainties about
whether Parcel 4 could be subdivided like the rest of the
properties in Punta del Viento. Tr. 266:22 to 267:9 (Klaber).
Ms. Motta sent an e-mail to her partner in her law firm on
June 5, 2006 stating that she was reviewing the purchase
agreement for Parcel 4 to find a way to avoid completing
the sale and obtain a refund of the $50,000 deposit. PX 286
(E-mail from Claudia Motta to Carlos Fernando Lugo (June
5, 2006)). Ms. Motta noted that the purchase agreement
provided for a refund of the deposit to the buyer if, within the
30-day due diligence period, the buyer discovered “any fact
related to zoning, title and land survey, current easements,
real estate taxes and assessments or legal access are not
as represented.” Id. Ms. Motta stated that an agreement
signed by Dr. Katzin and Ms. Katzin on September 29,
1995 relating to Parcels 2 and 3 established a 20-meter
conservation easement applicable to Parcel 4. Id.14 Ms.
14. Ms. Motta was mistaken in this assessment, since the
easement agreement only applied to Lots 15, 17, 19, 22, 23, and 24 in
Punta del Viento Estates, to the south of Parcel 4. DX 51T at 11-12.

85a
Appendix B
Motta indicated that she believed that the sellers’ failure to
disclose this easement to Mr. Klaber could trigger a refund
of the deposit, although she noted that the due diligence
period had already expired. Id.
Mr. Klaber also contacted the sellers’ attorney,
Roberto Berríos Falcon, to express concerns about
the waterfront rights for Parcel 4. Tr. 267:21 to 269:16
(Klaber). Mr. Berríos sent Mr. Klaber a letter on June
14, 2006 stating that “[t]he existence of a limitation to
title on all properties that are bound by the sea or ocean
is a matter of general knowledge and statutory origin in
Puerto Rico. . . . The limitation is generally restricted
to an easement in a band of land close to the shoreline;
the exact width and legal consequence [are] a matter of
continuous debate.” DX 54 (Letter from Berríos to Klaber
(June 14, 2006)). Mr. Berríos also clarified that the 1995
conservation easement agreement did not apply to Parcel
4. Id. Ms. Wagner followed up with Mr. Klaber via e-mail
on June 15, 2006, stating that she understood that Ms.
Motta had “questions regarding waterfront rights on
Parcel 4.” PX 446 (E-mail from Wagner to Klaber (June
15, 2006)). Ms. Wagner noted that “the situation here is
the same that exists almost everywhere in the world,
i.e., various government entities limit activities along the
waterfront,” and that, in her opinion, Ms. Motta “may be
overstating the importance of the ‘Treaty of Paris.’” Id.
Mr. Klaber responded via e-mail later that day that he
was “losing [his] investors over this title stuff” and that
“[t]he crisis in [Puerto Rico] last month put everyone on
edge.” PX 445 (Email from Klaber to Wagner (June 15,
2006)). Mr. Klaber nonetheless indicated that he remained

86a
Appendix B
interested in completing the purchase, writing that “I’m
trying to put the pieces back together,” but he also noted
that “it doesn’t look as though we are going to make the
June 30 deadline” for closing on the sale of Parcel 4. Id.
On June 15, 2006, Ms. Motta e-mailed John Beasley, an
FWS representative, to ask about any rights FWS claimed
to Parcel 4. PX 288 at 2 (E-mail from Motta to John
Beasley (June 15, 2006)). Mr. Beasley had previously sent
Ms. Motta information about the conservation easement
pertaining to the lots in Punta del Viento Estates to the
south of Parcel 4. Id. Mr. Beasley responded on June 22,
2006, indicating that he was about to send Ms. Motta
three documents via facsimile: (1) a copy of the relevant
portion of the 1887 survey map; (2) a “tracing” of the
survey plan with properties claimed by FWS annotated;
and (3) the Federal Register notice in 1982 of the transfer
of properties to FWS. Id. (E-mail from Beasley to Motta
(June 22, 2006)). Mr. Beasley explained that the area
labelled “1e” on the tracing was “the maritime zone,”
and the area labelled “1f” was “an old gun mount site
purchased by the Navy in 1903 from Escolastico Mulero,”
as recorded in the property registry. Id. Mr. Beasley also
sent Ms. Motta what appears to be an inset of the 1947
Navy property graphic identifying the peninsula to the
east of Parcel 4 as “Parcel Buena Vista” and stating its
size as 10.01 acres. PX 288 at 7; see also DX 11 (1947 Navy
property graphic). Finally, Mr. Beasley sent what appears
to be a larger version of the survey plan “tracing” with the
“Buena Vista” parcel outlined by hand and labelled as 10.01
acres. PX 288 at 8. These documents, taken together, were
ambiguous as to whether FWS was claiming ownership

87a
Appendix B
of a 2.25-acre gun mount site, a 10.01-acre peninsula, or
both. Ms. Motta testified that she discussed the contents
of Mr. Beasley’s facsimile with Mr. Klaber, including the
fact that FWS claimed ownership of a 2.25-acre gun mount
site within Parcel 4. Tr. 587:16 to 588:20; 590:19 to 591:1
(Motta). At trial, Mr. Klaber testified that he had never
seen the documents sent in the facsimile and that he was
not aware of FWS’s claim to the gun mount site at the
time he decided not to complete the purchase of Parcel 4.
Tr. 273:7-24, 298:22 to 299:19 (Klaber).

PX 288 at 4 (“tracing” of the 1887 survey plan with
purported FWS properties annotated).

88a
Appendix B

PX 288 at 8 (inset of 1947 Navy property graphic).
On June 20, 2006, two days before Mr. Beasley sent
Ms. Motta the FWS documents regarding Parcel 4, Mr.
Klaber told Ms. Wagner that “because of a ‘flaw’ in the
titles of all three properties” (referring to Parcel 4 and
Lots 8 and 12), he and his partners wanted to propose a
“compromise” to purchase only Lots 8 and 12 and apply
the $50,000 deposit for Parcel 4 to the purchase price of
the other two properties. PX 443 (E-mail from Wagner
to Ms. Katzin (June 23, 2006)). According to Ms. Wagner,
however, Ms. Motta asked Mr. Berríos to “prepare the
three deeds” for the properties the following day (June
21st). Id. Ms. Wagner sent an e-mail to Mr. Klaber on

89a
Appendix B
June 22nd to let him know that Mr. Berríos was preparing
the deeds, while still working to “clarify the waterfront
issues,” and asked whether this was “consistent with [his]
wishes/understanding.” PX 444 (E-mail from Wagner to
Klaber (June 22, 2006)); Tr. 296:15 to 297:11 (Klaber). On
June 23rd, Ms. Wagner informed Ms. Katzin about the
compromise that Mr. Klaber had proposed earlier that
week. PX 443.
Ms. Motta mailed a letter to Annette Katzin and Ms.
Winters on June 28, 2006 stating that Mr. Klaber would
not complete the purchase of Parcel 4. PX 291 (Letter from
Motta to Annette Katzin and Ms. Winters (June 28, 2006)).
Ms. Motta stated that Mr. Beasley had informed her that
“a portion of Lot 4 is property of the [FWS], a fact that
was not previously disclosed to our clients in the Purchase
Agreement, nor was it disclosed by the title study for
Lot 4 dated May 10, 1996.” Id. The letter did not specify
which portion of Parcel 4 she believed belonged to FWS,
or whether this FWS property included the maritime
zone, the gun mount site, or the entire peninsula. Id. The
letter also demanded the return of the $50,000 earnest
money deposit. Id. Mr. Klaber and his partners ultimately
purchased four lots to the south of Parcel 4 (Lots 8, 12, 13,
and 20) from Dr. Katzin and Ms. Katzin in August 2006
for a combined purchase price of $3.2 million. PX 439
(Closing Statement (Aug. 7, 2006)).
2.

Discussions with Dr. Jorge Orbay about
potential purchase of Parcel 4.

In August 2006, Dr. Jorge Orbay, a hand surgeon
and manager of a real estate development company,

90a
Appendix B
contacted Ms. Wagner because he was interested in
buying “a waterfront property in Culebra of moderate
size and with the intentions of developing a boutique
style resort.” PX 438 (E-mail from Dr. Orbay to Wagner
(Aug. 3, 2006)); Tr. 316:22 to 317:12 (Test. of Dr. Orbay).
Dr. Orbay considered buying Parcel 4 at that time,
but it was taken off the market for roughly a year. Tr.
320:4-10 (Orbay). When Parcel 4 was again listed for sale
around August 2007, Dr. Orbay considered purchasing
the property for development purposes. Tr. 320:11-18
(Orbay). In October 2007, Dr. Orbay sent Ms. Wagner a
letter of intent stating that his development company was
interested in purchasing Parcel 4 for $4.6 million, with a
good faith deposit of $460,000. PX 480 (Letter from Dr.
Orbay to Wagner (Oct. 9, 2007)).15 However, Dr. Orbay
never signed a purchase agreement for the property. Tr.
320:23 to 321:1 (Orbay).
On December 5, 2007, Dr. Orbay sent an e-mail
to Ms. Wagner in which he thanked her for providing
him an “environmental study document,” and stated
that he was “surprised by the fact that two ‘cuerdas’ of
the property actually belong to the Fish and Wildlife
Service.” PX 474 (E-mail from Orbay to Wagner (Dec. 5,
2007)). Ms. Wagner responded the following day, stating
that in September 2007 she had informed Dr. Orbay of
this claim and about a “ten-meter wide bank of land all
along the waterfront . . . where no permanent structure
can be built.” PX 473 (E-mail from Wagner to Orbay
15. Although the letter was erroneously dated “October 9,
2006,” the parties stipulated at trial that the date should have been
October 9, 2007. Tr. 343:3 to 344:6 (Orbay).

91a
Appendix B
(Dec. 6, 2007)). Ms. Wagner stated that FWS “can not
find any evidence of a gun mount and they have indicated
separately to me and to Attorney Berríos that they have
no interest in maintaining title to the two cuerdas and
that they will not hinder the development of lot 4. Their
only interest is in the maritime zone.” Id. at 1-2. Dr. Orbay
reiterated that although he was aware of the “coastal
strip,” he did not know about the additional “2.25 acres,”
and stated:
[An FWS] reserve within the property has
ominous implications for any future development
as the owner will have to provide public access
to it and cannot build or utilize this land. It is
interesting that nobody knows where these
2.25 acres are, highlighting that this is a new
issue brought upon this transaction. We must
now evaluate the consequences brought forth
by this new finding.
Id. at 1 (E-mail from Orbay to Wagner (Dec. 6, 2007)).
On February 6, 2008, Mr. Berríos informed Dr. Orbay
that he was attempting to exchange property with FWS to
release the claim on the 2.25-acre gun mount site. PX 492
(Email from Berríos to Wagner and Orbay, Feb. 6, 2008).
Later that month, Mr. Berríos informed Dr. Orbay that
FWS had sent a letter confirming its willingness to move
forward with the property exchange, if Dr. Orbay was
“still interested in moving forward with the transaction.”
PX 488 (E-mail from Berríos to Orbay (Feb. 2008)).
Contemporaneously, Dr. Orbay told Mr. Berríos and Ms.

92a
Appendix B
Wagner that his development company was interested
in building a “small dinghy dock” on the property as
part of the planned resort. PX 491 (E-mail from Orbay
to Berríos (Feb. 8, 2008)). Mr. Berríos responded that it
would be “very difficult to obtain a permit for any type
of dock structure” because of protected mangroves and
other plants in the area. Id. (E-mail from Berríos to Orbay
(Feb. 8, 2008)).
Dr. Orbay informed Mr. Berríos and Ms. Wagner on
February 28, 2008 that he was no longer interested in
purchasing Parcel 4. PX 488. Dr. Orbay stated that he
could no longer pursue the development project because
he would be “overextending” himself. Id. He testified
that his brother, sister, and other potential investors had
backed out, in part because of the real estate crash of 2008,
and his development company could not do the project
alone because it had already bought other property in the
Bahamas. Tr. 331:6 to 332:11 (Orbay). Dr. Orbay testified
at trial that the United States’ claim of ownership was
not the reason for his decision to not purchase Parcel 4.
Tr. 332:15-18 (Orbay).
3.

Offers from other potential buyers.

On June 16, 2008, a company named Global Emerging
Markets (“GEM”) sent a letter titled “Expression of
Interest” to Mr. Berríos. PX 306 (Letter from GEM to
Berríos (June 16, 2008)). In this letter, GEM proposed
to purchase Parcel 4 for $3,876,200, which included
a payment of $1,500,000 at closing and an additional
$2,376,000 ($2,000,000 plus $376,000 of interest at 9%)

93a
Appendix B
after two years. Id. at 1. The proposed purchase price
expressly included consideration for “the contingent claim
of [FWS] on yet to be determined coordinates regarding
the ownership of 2.25 acres of land” within Parcel 4.
Id. Mr. Berríos forwarded this letter to Ms. Wagner on
July 2, 2008, stating that the sellers wanted to make
a counteroffer of $4 million as the purchase price with
$1,200,000 due at closing and $2,800,000 due at the end of
five years, with quarterly interest payments of 7%. PX 487
(E-mail from Berríos to Wagner (July 2, 2008)). GEM’s
purchase of Parcel 4 was never completed. Tr. 224:15 to
225:11 (Dr. Katzin).
In September 2009, the owner of the property north of
Parcel 4, Mr. Alberic Colón, offered to purchase 30 cuerdas
of Parcel 4 for $1.5 million. PX 498 (Proposed Purchase
Agreement (Sept. 7, 2009)); Tr. 225:13 to 226:14 (Dr.
Katzin). The 30 cuerdas in the proposed purchase were
on the northeast side of Parcel 4, adjacent to Mr. Colon’s
property, and included the peninsula on the east side of
Parcel 4. DX 356 at 2 (E-mail from Wagner to Berríos
(Sept. 8, 2009)); Tr. 551:13 to 552:3 (Wagner). Ms. Wagner
had told Mr. Colón about FWS’s claim to a 2.25-acre gun
mount site on the peninsula before Mr. Colón made the
offer to buy this property, and Mr. Colón stated that he
was not concerned about that claim. Tr. 556:10 to 557:15
(Wagner). Mr. Colón also stated that he did not intend
to develop the 30 cuerdas, and was interesting only in
“protect[ing] the view and privacy of his home.” DX 356 at
2. Mr. Colón signed a purchase agreement similar to the
agreement previously signed by Mr. Klaber in 2006, and
wrote a check to Ms. Wagner’s realty firm for $150,000

94a
Appendix B
as an earnest money deposit. PX 498. The sellers did not
accept Mr. Colon’s offer. DX 356 at 1 (E-mail from Wagner
to Berríos (Oct. 30, 2009)); Tr. 557:16 to 558:6 (Wagner).
JURISDICTION
In its ruling on the government’s motion to dismiss
plaintiffs’ claims under RCFC 12(b)(1) and 56, the court
considered and rejected the government’s arguments
that the claims were barred by the statute of limitations
contained in 28 U.S.C. § 2501, or, alternatively, that these
claims should be barred by the equitable doctrine of
laches. Katzin, 120 Fed. Cl. at 213-16. The government
has reasserted these arguments, claiming that additional
facts adduced at trial establish that plaintiffs’ claims are
barred, or should be barred through an exercise of the
court’s discretion. Def.’s Post-Trial Br. at 48-62. The court
consequently has reviewed the government’s arguments
in light of the facts adduced at trial.
A. Statute of Limitations
The Tucker Act grants this court “jurisdiction to
render judgment upon any claim against the United
States founded either upon the Constitution, or any Act of
Congress or any regulation of an executive department, . . .
or for liquidated or unliquidated damages in cases not
sounding in tort.” 28 U.S.C. § 1491(a)(1). Pursuant to 28
U.S.C. § 2501, however, this court’s jurisdiction is limited
to claims “filed within six years after such claim first
accrues.” This statute of limitations is a jurisdictional
requirement, and unless that requirement is met, the

95a
Appendix B
court has no juridical power to consider the merits of the
case. John R. Sand & Gravel Co. v. United States, 552 U.S.
130, 136, 128 S. Ct. 750, 169 L. Ed. 2d 591 (2008).
A claim accrues “when all events have occurred
to fix the [g]overnment’s alleged liability, entitling the
claimant to demand payment and sue here for his money.”
Samish Indian Nation v. United States, 419 F.3d 1355,
1369 (Fed. Cir. 2005) (quoting Martinez v. United States,
333 F.3d 1295, 1303 (Fed. Cir. 2003) (en banc)). Before
a claim can accrue, the plaintiff either must have been
aware or should have been aware of the events fixing the
government’s alleged liability. Katzin, 120 Fed. Cl. at 209
(citing Hopland Band of Pomo Indians v. United States,
855 F.2d 1573, 1577 (Fed. Cir. 1998)); Kingman Reef Atoll
Dev., L.L.C. v. United States, 116 Fed. Cl. 708, 772 (2014)
(citing Casitas Mun. Water Dist. v. United States, 708
F.3d 1340, 1359 (Fed. Cir. 2013)); see also Navajo Nation v.
United States, 631 F.3d 1268, 1273-74 (Fed. Cir. 2011)). In
a takings case, “the act that causes the taking also causes
the accrual of a takings claim.” Kingman Reef Atoll, 116
Fed. Cl. at 772. In short, a takings claim accrues “when the
United States interferes with a plaintiff’s property rights.”
Katzin, 120 Fed. Cl. at 214 (citing Yuba Goldfields, Inc. v.
United States, 723 F.2d 884, 889 (Fed. Cir. 1983); Central
Pines Land Co. v. United States, 107 Fed. Cl. 310, 325
(2010)). And, “what counts [for a takings claim] is not what
[the] government said it was doing, or what it later says its
intent was, or whether it may have used the language of a
proprietor. What counts is what the government did.” Yuba
Goldfields, 723 F.2d at 889 (emphasis in original)) (holding
that “the period of taking, if taking there be, terminated

96a
Appendix B
when the United States acceded to restoration of Yuba’s
[property] rights, id. at 890”).
This case was filed on June 15, 2012. Accordingly, for
the court to have jurisdiction, the statute of limitations
would require that the plaintiffs’ claims must have accrued
no earlier than June 15, 2006. The specific “takings”
alleged by the plaintiffs are that (1) the government
interfered with their property rights, as demonstrated
by the fact that Mr. Klaber rescinded his agreement to
purchase Parcel 4, and (2) the government “has taken for
public use” all property for which it continues to claim
ownership, preventing plaintiffs from selling Parcel 4 for
its true value. Pls.’ Post-Trial Br. at 22-28.
Mr. Klaber signed the purchase agreement in March
2006. PX 282. It was not until Mr. Beasley of the FWS
faxed documents to Ms. Motta on June 22, 2006, asserting
FWS claims to the maritime zone, the gun mount site, and
the peninsula, that Mr. Klaber rescinded the purchase
agreement for Parcel 4. PX 291. As a result, the relevant
event that fixed the government’s alleged liability was
the assertion of ownership by FWS on June 22, 2006,
followed by the Klaber contract’s formal rescission on
June 28, 2006 pursuant to Ms. Motta’s letter. PX 291. Mr.
Klaber’s testimony that he either ignored the FWS’s claim
or was unaware of it was not credible in light of the chain
of events and Ms. Motta’s contrary testimony. Although
the evidence shows that Mr. Klaber considered “get[ting]
out of the deal” in early June 2006, the evidence also
shows that he was still working to close the deal on June
15, 2006. Notably, Mr. Klaber was “put[ting] the pieces”

97a
Appendix B
of the investment plan “back together” and “working on
this.” PX 445. It was not until Mr. Beasley of the FWS
sent the facsimile asserting ownership that Mr. Klaber
pulled out of the deal.16
The record in this case shows that plaintiffs or
their predecessors in interest (Herbert and Annette
Katzin) knew or had reason to know of the government’s
claims to the maritime zone and the former gun mount
site prior to the contract with Mr. Klaber. E.g., DX 205
(1987 correspondence between Herbert Katzin and
FWS regarding property boundaries). Nonetheless,
“the crucial question in this case is when the United
States first interfered with the [plaintiffs’] enjoyment
of the subject property.” Katzin, 120 Fed. Cl. at 214
(emphasis added). In this respect, the additional evidence
submitted at trial does not change the court’s prior
determination that, in the context of plaintiffs’ claims,
the government did not interfere with their property
rights until the FWS asserted its claim of ownership by
the communication to Mr. Klaber’s counsel. That Mr.
Klaber subsequently rescinded his contract, and the FWS
thereafter has continued to assert its ownership confirms
16. The court recognizes that the “proper focus for statute of
limitations purposes is upon the time of the [defendant’s] acts, not
upon the time at which the consequences of the acts became most
painful.” Goodrich v. United States, 434 F.3d 1329, 1333-34 (Fed.
Cir. 2006) (quoting Fallini v. United States, 56 F.3d 1378, 1383 (Fed.
Cir. 1995) (in turn quoting Delaware State Coll. v. Ricks, 449 U.S.
250, 258, 101 S. Ct. 498, 66 L. Ed. 2d 431 (1980))) (emphasis added
in Goodrich). In this instance, both Mr. Beasley’s action on behalf of
FWS and Mr. Klaber’s response are separated by only several days
and both fall within the limitations period.

98a
Appendix B
the government’s interference with plaintiffs’ property
interests.
As the court’s prior opinion discussed, “mere
assertion[s]” of government ownership do not amount to
interference with property rights. Katzin, 120 Fed. Cl.
at 214 (quoting Central Pines Land Co., 107 Fed. Cl. at
325). The disputes over ownership rights prior to June
2006 were never refined to the point of interfering with
plaintiffs’ use and enjoyment.17 The record shows that in
1989, Herbert and Annette Katzin tentatively agreed to
sell their 50% interest in Parcel 4 to Mr. Cacho, and that
contemporaneously they were attempting to negotiate
with FWS over the exact boundary lines of that property.
DX 45. However, plaintiffs have not alleged, nor has
the government established, that any FWS claims of
ownership interfered with that proposed sale. Similarly,
in the mid-1990s Herbert and Annette Katzin revisited
the issue of the maritime zone’s terrestrial border and
were able to negotiate a conservation easement with FWS
for the properties comprising Punta del Viento Estates
(former Parcels 2 and 3). DX 51T. It appears that an
unidentified representative of the Katzins also met with
17. The only evidence on point that the government adduced
at trial was testimony regarding placement of survey markers and
wildlife refuge signs. That placement could have related to the
maritime zone, which plaintiffs concede the government controls. In
short, there is no evidence that the Navy or FWS ever took steps to
occupy or use the portion of Parcel 4 in question, i.e., the peninsula.
Compare, with DX 132 (1972 Navy report indicating the coastal strip
and gun mount sites were “excess”); Tr. 208:8 to 211:6 (Dr. Katzin)
(testimony about unsuccessful attempts to locate any evidence of a
naval gun emplacement on the peninsula).

99a
Appendix B
an FWS representative, Ms. Rice, in an effort to clarify
the boundaries of Parcel 4 so that it could be sold, and
Ms. Rice’s notes state that there was a “problem” with a
10-acre area and a 2.25-acre area. DX 48 at 2. But that
does not amount to government interference, nor does
it amount to an assertion of title. This evidence does not
establish that the lack of clarity over boundaries and the
location of the gun mount prevented the Katzins from
selling or otherwise exercising their rights to Parcel 4
prior to June 2006.
In short, the plaintiffs have established that the
government’s actual interference with their property
rights began on June 22, 2006, when Mr. Beasley sent
a facsimile to Mr. Klaber’s counsel, culminating six
days later on June 28, 2006, with the rescission by Mr.
Klaber of his contract. Plaintiffs have also shown that
this interference has continued since that time. Although
the plaintiffs and their predecessors in interest may have
known or had reason to know of the government’s claims
to the maritime zone or a former gun mount site prior
to 2006, evidence does not show that these ownership
claims amounted to actual interference with the plaintiffs’
property rights. Accordingly, plaintiffs’ claims in the
present case accrued on June 22, 2006 and are therefore
not barred by the six-year statute of limitations in 28
U.S.C. § 2501.
B. The Equitable Doctrine of Laches
In its prior motion to dismiss, the government invoked
the doctrine of laches primarily to argue that the passage

100a
Appendix B
of time had impaired its ability to establish its statute of
limitations defense. The court previously found that these
arguments “lack persuasive force” because the evidence
claimed by the government to be unavailable would not
have established that plaintiffs’ claims accrued outside of
the limitations period. Katzin, 120 Fed. Cl. at 216.
The doctrine of laches is based on concepts of fairness.
At its heart is the idea that plaintiffs should not be allowed
to “sleep on their rights” to the detriment of the defendant.
Katzin, 120 Fed. Cl. at 209-10 (quoting Ikelionwu v.
United States, 150 F.3d 233, 237 (2d Cir. 1998)). In cases
where a statutory limitations period applies, courts
generally do not invoke the doctrine of laches to shorten
this period unless there has been substantial prejudice
to the defendant. Id. (citing Lankster v. United States, 87
Fed. Cl. 747, 755 (2009)).
To prevail on an affirmative defense of laches, a
defendant must demonstrate that (1) “the plaintiff delayed
filing suit for an unreasonable and inexcusable length
of time from the time the plaintiff knew or reasonably
should have known of its claim against the defendant,”
and (2) this delay “operated to the prejudice or injury
of the defendant.” Katzin, 120 Fed. Cl. at 210 (quoting
Lankster, 87 Fed. Cl. at 755). A defendant can establish
either “economic prejudice,” where the cost of defense
has significantly increased due to the delay, or “defense
prejudice,” where the defendant is impaired in its ability
to defend against the suit due to the passage of time —
for example, because evidence has been lost or witnesses
are unavailable. Id. (citing Cornetta v. United States, 851

101a
Appendix B
F.2d 1372, 1378 (Fed. Cir. 1988) (en banc)); Abernethy v.
United States, 108 Fed. Cl. 183, 190 (2012).
It its post-trial brief, the government repeats many
of the arguments it made previously, including that (1)
Herbert Katzin, who died in 1995, could have testified
about his discussions with FWS regarding the boundary
“dispute;” (2) Annette Katzin, who began having memory
problems several years ago and died during the pendency
of this case, could have provided similar testimony; (3)
former FWS or Navy personnel could have testified about
additional actions taken by the government to establish
control or possession of property in or around Parcel 4;
and (4) the memories of other witnesses — including Mr.
Meléndez, Ms. Rice, and Ms. Winters — had faded to the
point that their testimony as to plaintiffs’ notice of the
United States’ ownership claims was ineffective. Def.’s
Post-Trial Br. at 58-61. In making these arguments, the
government focuses almost exclusively on the issue of
plaintiffs’ notice of the government’s ownership claims,
as opposed to whether the government’s actions actually
interfered with plaintiffs’ property rights. Without the
“interference” prong of the claim accrual test, see Yuba
Goldfields, 723 F.2d at 889, the government simply
cannot establish that plaintiffs’ claim accrued prior to
June 22, 2006.
The government also contends that plaintiffs’ alleged
“delay” in filing their takings claims prejudiced the
government’s “title argument.” Def.’s Post-Trial Br. at
61-62. For example, the government asserts that José
Gómez Velázquez, who has died, and Alfredo Quiñones

102a
Appendix B
Clemente, who could not be located, could have testified
as to why their surveys of Parcel 4 and the property from
which it was subdivided did not include the peninsula to
the east of Parcel 4. Id. at 61. Relatedly, testimony from
Herbert and Annette Katzin allegedly could have better
exposed the “flaws in the Fletcher survey,” since Ms.
Winters’ memory as to the conditions surrounding this
survey had faded. Id. These claims by the government
are unavailing because the court has a full record of title
to the property at issue.
“The government bears a ‘relatively heavy burden of
proof’ of showing sufficient defense prejudice to invoke
laches ‘to shorten the statutory period.’” Katzin, 120 Fed.
Cl. at 216 (quoting Lankster, 87 Fed. Cl. at 755 (in turn
citing Cornetta, 851 F.2d at 1380 (en banc))). That burden
has not been met, and the court rejects the government’s
laches defense.
STANDARDS FOR DECISION
The Takings Clause of the Fifth Amendment provides
that “private property [shall not] be taken for public
use, without just compensation.” U.S. Const. amend.
V. The inquiry into whether private property has been
taken for public use is “a question of law based on factual
underpinnings.” Arkansas Game & Fish Comm’n v.
United States, 87 Fed. Cl. 594, 614 (2009) (quoting Wyatt
v. United States, 271 F.3d 1090, 1096 (Fed. Cir. 2001)),
rev’d, 637 F.3d 1366 (Fed. Cir. 2011), rev’d and remanded,
568 U.S. 23, 133 S.Ct. 511, 184 L. Ed. 2d 417 (2012), aff’d
after remand, 736 F.3d 1364 (Fed. Cir. 2013). Accordingly,

103a
Appendix B
the plaintiffs in this case must prove “the relevant factual
underpinnings of [their] claim against the United States,
and must generally proffer ‘evidence which is more
convincing than the evidence which is offered in opposition
to it.’” Id. (quoting Jazz Photo Corp. v. United States, 439
F.3d 1344, 1350 (Fed. Cir. 2006) (in turn quoting Hale v.
Department of Transp., Fed. Aviation Admin., 772 F.2d
882, 885 (Fed. Cir. 1985))).
To establish a claim under the Takings Clause, the
plaintiffs must prove that (1) they have a “cognizable
property interest” in the property allegedly taken by the
government, and (2) the government’s actions with respect
to that property constituted a “compensable taking of that
property interest.” Kingman Reef Atoll Dev., 116 Fed. Cl.
at 746 (quoting Huntleigh USA Corp. v. United States, 525
F.3d 1370, 1377 (Fed. Cir. 2008) (in turn quoting American
Pelagic Fishing Co. v. United States, 379 F.3d 1363, 1372
(Fed. Cir. 2004))). The extent of a plaintiff’s “cognizable
property interest” is determined through application of
state law. E.g., Phillips v. Washington Legal Found., 524
U.S. 156, 164, 118 S. Ct. 1925, 141 L. Ed. 2d 174 (1998)
(citing Board of Regents of State Colleges v. Roth, 408
U.S. 564, 577, 92 S. Ct. 2701, 33 L. Ed. 2d 548 (1972)). In
this instance, the court looks to the law of Puerto Rico
to delineate plaintiffs’ property interests. See Alvarez
v. United States, 42 Ct. Cl. 458, 474-79 (1907) (applying
Puerto Rican property law to plaintiff’s takings claim
and observing that Puerto Rican property law originated
in Spanish law, but deciding that the right to hold public
office was not a cognizable property right). If plaintiffs’
property interests are proven, a compensable taking of

104a
Appendix B
such property interests occurs with governmental actions
that amount to “appropriation of private property,”
Huntleigh, 525 F.3d at 1378, such that the government has
“preempt[ed] the owner[‘]s right to enjoy his property for
an extended period of time,” Ridge Line, Inc. v. United
States, 346 F.3d 1346, 1356 (2003).
ANALYSIS
A. Property Interests With Respect to Parcel 4
It is undisputed that plaintiffs jointly have fee simple
title to Parcel 4, resulting either from inheritance (Ms.
Winters) or purchase (Dr. Katzin and Ms. Katzin). E.g.,
Def.’s Post-Trial Br. at 16-24 (recounting plaintiff’s
acquisition of title to Parcel 4). It is also undisputed that
the government has rights to a “maritime terrestrial
zone” as it was defined under Spanish law — the seaward
area beyond the high water mark of the ocean, including
the mangroves growing in this area — as well as a
“rescue easement” extending inland 20 meters beyond
the maritime terrestrial zone. E.g., Pls.’ Post-Trial Br.
at 6-7 (acknowledging the government’s rights to these
areas). Accordingly, the dispute in this case is limited to
two areas of land claimed by the government: (1) the 10.01acre peninsula on the eastern side of Parcel 4,18 and (2) a
18. The size of this peninsula is reported inconsistently in the
record. A Navy property graphic from 1947 indicates the size of the
peninsula (“Parcel Buena Vista”) is 10.01 acres, DX 11, and FWS
later referred to it as a “10-acre tract” for which there was a property
dispute, e.g., DX 49 at 61 (1994 FWS Annual Narrative Report). Mr.
Bidot contrastingly testified that the peninsula was approximately 15

105a
Appendix B
2.25-acre parcel of land acquired by the U.S. Navy in 1903,
which the government claims is also located somewhere
on that 10.01 acre peninsula. The court will address each
of these areas in turn.
1.

The 10.01-acre peninsula on the eastern side of
Parcel 4.

Plaintiffs trace fee simple title to Parcel 4, including
the peninsula, through a chain of title extending back
to the late 1800s. This title can be briefly summarized
as follows. Parcel 4 roughly corresponds to the area
designated as Lot 24 on the original 1887 survey plan
of Culebra. PX 3T at 6; Tr. 665:3-6 (Rosa). Lot 24 was
described in the Puerto Rican Property Registry as
bounded on the east by the sea. PX 420 at 11. Over the next
several decades, this lot was grouped with and segregated
from other adjacent properties until it was eventually sold
to Pilar Gonzalez Alhoyo in 1940 as Property No. 270.
PX 415T. After Mr. Gonzalez’s death in 1963, Property No.
270 was divided among his heirs. Id. at 11-14. Ms. Winters
and Luz Kjeldsen McLaughlin jointly received Parcel 4 as
their portion of Mr. Gonzalez’s estate. DX 28T at 11. Parcel
4 was described in the deed as bounded on the north by
Parcel 5, on the south by Parcels 1 and 3, on the east by
the sea, and on the west by Parcels 1 and 6. Id. at 9-10.
The government asserts that plaintiffs do not have
a property interest in the 10.01-acre peninsula on the
cuerdas (14.57 acres). Tr. 1371:7-14, 1373:7 to 1377:19 (Bidot). Because
the court is primarily concerned with the government’s claim to this
area, it will use the size cited in the Navy’s and FWS’s documents.

106a
Appendix B
eastern side of Parcel 4 because the Gómez survey,
referenced in the deed creating the parcel, does not
depict the peninsula. Def.’s Post-Trial Br. at 64-66. The
government also points to the fact that the deed for Parcel
4 states its size as 67.5034 cuerdas, and Mr. Bidot later
determined that this size matched the depiction of Parcel
4 in the Gómez and Quiñones surveys, not inclusive of
the peninsula. Id. at 70-72; see also Tr. 1368:19 to 1369:10
(Bidot). The government speculates that the peninsula
was instead land acquired at some point by the U.S. Navy,
which would explain why the deed for the parent tract,
Property No. 270, indicates a border with “lands of the
Department of the Navy,” as well as why the peninsula
was included as a separate parcel in the Puerto Rican
tax records. Def.’s Post-Trial Br. at 72, 74; PX 415T at 4.
There is no proof to support that speculation, however.
The property reg istr y contains no indication
whatsoever that the government, or any other owner for
that matter, separately acquired title to the peninsula such
that it was segregated from the remainder of the property.
Starting with the creation of Property No. 167 in 1909,
the larger property from which Parcel 4 was later divided
was described as being bounded on the east with “the sea
and land of the United States, Department of the Navy.”
E.g., PX 412T at 4. There is no further indication, however,
of where this “Department of Navy” land is located. The
only evidence before the court of land recorded in the
property registry in favor of the Navy is Property No. 120,
the 2.25-acre tract sold by Mr. Mulero in 1903 in a site for
a gun mount. PX 411T. Even if this tract was located on
the peninsula, which the court finds it is not, see infra, at

107a
Appendix B
37-39, this would not account for the removal of the entire
10-acre peninsula from the property.
The fact that the size of Parcel 4 is listed in the
deed and in the property registry as 67.5 cuerdas is not
dispositive of the parcel’s actual size when that size is in
conflict with the specific boundaries described in those
documents. See Veve y Diaz v. Sanchez, 226 U.S. 234, 240,
33 S. Ct. 36, 57 L. Ed. 201 (1912) (finding that under both
common law and Puerto Rican law, “calls for quantity
must yield to the more certain and locative lines of the
adjoining owners,” which are “treated as a sort of natural
monument, and must prevail over the more general and
less distinct designation by quantity”).19 The deed itself
suggests there was some ambiguity in the exact size of
the parent property, Property No. 270, because it had
previously been listed in the property registry as 300.5
cuerdas, but the Gómez survey determined it was 344.5
cuerdas. DX 28T at 6-8.
In addition, any ambiguity in the nature of property
transferred via a deed is to be reconciled in accordance
with the intent of the grantor, or the legator in the case
of property transferred in accordance with a will. See
Bird Arias v. Societe Anonyme Des Sucreries de Saint
Jean, 62 F.2d 410, 412-13 (1st Cir. 1932) (finding that an
19. In the Veve y Diaz decision, the Supreme Court noted that
the original suit in 1889 to foreclose a sugar plantation held by Mr.
Sanchez in favor of Ms. Diaz “was the beginning of litigation in the
Spanish courts which is said to have been the most protracted and
bitter in the history of the island of P[ue]rto Rico.” Veve y Diaz, 226
U.S. at 236.

108a
Appendix B
“inadvertent” omission in a deed of a small share of a
Puerto Rican farm did not destroy the grantees’ title to the
entire farm when the grantors’ intent was to transfer the
entire farm); cf. Restatement (Third) of Property § 11.3(c)
(2003) (“The foundational constructional preference is
for the construction that is more in accord with common
intention,” including “the construction that is more in
accord with the donor’s general dispositive plan than other
plausible constructions.”). The deed through which Parcel
4 was created states that the real property assets of Pilar
Gonzalez were inventoried for the purpose of dividing
those assets among his heirs. DX 28T at 6-7. Therefore,
the court must presume that the deed transferring those
real property assets effected the transfer of all those
assets, even if the accompanying survey appears to have
incorrectly omitted part of the property. Accord Bird
Arias, 62 F.2d at 413. The description of Parcel 4 in the
deed and in the property registry indicates that it is
bounded on the east by the ocean. DX 28T at 9-10; PX 416T
at 4. This would include the peninsula that, as discussed
supra, would have been part of Property No. 270.
In sum, the depiction of Property No. 270 in the
Gómez survey was erroneous because, based on the chain
of title in the Puerto Rican Property Registry, it should
have included the peninsula to the east of what is now
Parcel 4. Similarly, the recorded size of Parcel 4 (67.5
cuerdas), based on the Gómez survey, was also erroneous
because it did not account for the size of the peninsula. 20
20. Even if the court were to have made a contrary finding, with
the potential result that the Katzins never acquired an interest in
the peninsula along with the rest of Parcel 4, the peninsula would be

109a
Appendix B
Accordingly, plaintiffs’ title to Parcel 4 includes title to the
peninsula, subject to the maritime terrestrial zone and
rescue easement that all parties concede are controlled
by the government.
2.

The 2.25-acre former gun mount site.

The deed transferring the 2.25-acre tract to the Navy,
which was signed by a notary and filed in the property
registry, indicates that the tract was bounded on the
north by the property of Antonio Lugo. PX 12T at 4-5.
This description indicates that the tract is located at the
northeast corner of former Lot 25, which was also the
northern boundary of Property No. 117, from which the
tract was segregated. Former Lot 25 (now Parcel 5) is
located north of Parcel 4, see PX 2T, placing the 2.25-acre
tract well outside of the plaintiffs’ current property. As
discussed supra, under Puerto Rican law an “escritura
pública” signed by a notary and filed with the Puerto
Rican Registry of Property is presumed to be true, and
the party contesting its contents has the burden of proof.
P.R. Laws Ann. tit. 4, § 2002; id. tit. 31 § 3273.
The government nonetheless asserts that the
description of the 2.25-acre tract’s location in the deed
is erroneous because the tract should be located at the
northeast corner of former Lot 24 (now Parcel 4), and not
Lot 25. E.g., Def.’s Post-Trial Br. at 86. As evidence of this
placement, the government points to the agreement of sale
ostensibly signed by Mr. Mulero and Mr. Chadwick, the
held by Ms. Winters as heiress to Pilar Gonzalez’s estate.

110a
Appendix B
Navy’s representative, the day after the deed was signed.
Id. at 86-87. This agreement fails as proof of the tract’s
location for several reasons. First, the agreement of sale
was neither notarized nor filed in the property registry,
meaning that it does not receive the same protections or
presumptions under Puerto Rican law as the recorded
deed, which is presumed to be true and legal. P.R. Laws
Ann. tit. 30, § 2354. In fact, Puerto Rican law specifies
that “no contradictory action on the ownership of real
properties or real rights recorded in the name of a specific
titleholder may be taken without having previously . . . filed
a suit in court for correction, annulment or cancellation of
the corresponding registration, when it is in order.” Id.
Further, “[p]rivate instruments executed for the purpose
of changing the agreements made in a public instrument
shall produce no effect against a third person.” P.R. Laws
Ann. tit. 31, § 3285. Accordingly, if, as the government
contends, the parties’ intent in signing the agreement of
sale was to “clarify” that the 2.25-acre tract was located
within former Lot 24, the proper procedure was for the
government to file a suit for correction or annulment of
the recorded deed. Without such a suit, the subsequent
agreement cannot serve in this action to nullify the deed’s
provisions, including its description of the property’s
location, particularly as applied against the plaintiffs in
this case, who are “third parties” to whatever agreement
existed between Mr. Mulero and the Navy.
Second, the language of the agreement of sale is
executory, i.e., taking effect at a further time, since it
states that Mr. Mulero “agrees to sell, grant, transfer
and convey” the tract to the Navy. DX 42 at 1 (emphasis

111a
Appendix B
added). Contrastingly, the language of the deed has
immediately operative effect, stating that Mr. Mulero
and the Guadalupes “convey their respective ownership
[rights]” to the Navy. PX 12T at 8 (emphasis added). In
light of this language, the agreement of sale can be viewed,
at most, as an agreement between the parties to sell the
property in question at some point in the future, which
is peculiar given that the agreement of sale is dated one
day after the deed was signed. Compare DX 42 at 1 (dated
June 29, 1903), with PX 12T at 1 (dated June 28, 1903).
Under Puerto Rican law, “[a]n instrument acknowledging
an agreement or contract proves nothing against the
instrument containing the same if by excess or omission
they disagree therewith, unless the novation of the former
is expressly proven.” P.R. Laws Ann. tit. 31, § 3279.
Accordingly, since the agreement of sale’s description of
the 2.25-acre tract’s location differs from that contained
in the recorded deed, the agreement cannot serve as proof
of the deed’s contents or intended effect.
Third, there is insufficient evidence that Escolástico
Mulero signed or intended to be bound by the provisions of
the agreement of sale. The deed specifically states that Mr.
Mulero could not read Spanish, let alone English. PX 12T
at 11. And, his wife had a “sight impairment” and could not
read as consequence of that impairment. Id. As a result,
he and his wife requested that Ricardo Amado read and
verify the contents of the deed on their behalf. Id. at 1112. Additionally, the notary read the deed “out loud, in a
clear voice and in one single act, this being verified by the
interpreter Mr. Manuel V. del Valle, who translated it into
the English language, to all of which the representative

112a
Appendix B
of the purchaser, through the interpreter, expressed to
be in agreement.” Id. The agreement of sale, however, is
written entirely in English. DX 42. It does not indicate
whether anyone translated or verified the agreement’s
contents for Mr. Mulero. In addition, Mr. Mulero’s name is
written in script in the signature block of the agreement,
under the word “His” and above the word “Mark,” with
what appears to be a cross or plus sign between the words
“Escolastico” and “Mulero.” The government notes that
a mark of “X” is commonly understood to “serv[e] as the
signature of a person who is . . . illiterate,” Def.’s PostTrial Br. at 87 (quoting X, Black’s Law Dictionary 1851
(10th ed. 2014)), but that is an improper description of
the “signature” on the agreement of sale. In short, the
validity of the agreement of sale is suspect in light of the
provisions memorialized in the deed that ensured Mr.
Mulero’s understanding and agreement.
Finally, the government relies on the fact that in
subsequent naval records, “the Navy repeatedly and
consistently placed the 2.25-acre gun mount site on th[e]
peninsula” to the east of Parcel 4. Def.’s Post-Trial Br.
at 88. These documents, however, are not proof of the
tract’s location, nor are they proof of government title to
the property depicted in those records. At most, these
records demonstrate that Navy personnel, and later FWS
personnel, thought the 2.25-acre tract was located on or
near the peninsula.21 The situation would be different if the
21. Some of these records acknowledged that the boundaries
of federal property on Culebra were either poorly defined or in
dispute with the owners of contiguous properties. See e.g., DX 6 at
313 n.2 (noting that the depictions of properties in the Navy real

113a
Appendix B
gun mount had actually been constructed, as others were
on Culebra, because construction and occupation would
have constituted adverse possession. But, no physical
indicia exist of construction or occupation of this particular
gun mount. Overall, the government’s claim to ownership
of part of Parcel 4 as a site for a gun mount must fail.
B. The Government’s Actions with Respect to Parcel 4
1.

The government’s actions.

“A physical taking occurs when [the] ‘government
encroaches upon or occupies private land for its own
proposed use.’” Love Terminal Partners v. United
States, 97 Fed. Cl. 355, 373 (2011) (quoting Palazzolo
v. Rhode Island, 533 U.S. 606, 617, 121 S. Ct. 2448, 150
L. Ed. 2d 592 (2001)). A physical taking can include
either actual invasion of a landowner’s property by the
government or “appropriation of private property” for the
government’s benefit. Huntleigh, 525 F.3d at 1378; Ridge
Line, 346 F.3d at 1356. In the case of a non-possessory
taking, governmental action can effect a taking when it
prohibits or prevents a landowner from exercising his or
her property rights because of a governmental claim of
ownership of those rights. E.g., Yuba Goldfields, 723 F.2d
at 887-88 (reversing a grant of summary judgment for the
government, and concluding that the government could
have effected a “non-possessional taking” of plaintiff’s
mineral rights when it prevented plaintiff from extracting
estate manual were “necessarily tentative” because of ambiguous or
missing records); DX 1 at 25 (noting that because of ongoing property
disputes, the quantity of federal land on Culabra was “uncertain”).

114a
Appendix B
precious metals from a property because the government
asserted it held those mineral rights); see also id. at 891
(finding that the government can effect a physical taking
of property rights through the acts and statements of its
officials, regardless of whether those acts were authorized
by Congress); Yaist v. United States, 656 F.2d 616, 621,
228 Ct. Cl. 281 (Ct. Cl. 1981) (“[A] cause of action arises
for the plaintiff under the Fifth Amendment through his
allegation that he, and not the [g]overnment, holds the valid
title.”); Bourgeois v. United States, 545 F.2d 727, 729 n.1,
212 Ct. Cl. 32 (Ct. Cl. 1976) (holding that a plaintiff could
appropriately try title in a just compensation suit because
the Quiet Title Act of 1972, codified at 28 U.S.C. §§ 1346(f),
1402(d) and 2409a(a), specifically excepted actions that
could be brought under the Tucker Act) (citing Malone v.
Bowdoin, 369 U.S. 643, 647 n.8, 82 S. Ct. 980, 8 L. Ed. 2d
168 (1962), while noting that Malone predated the Quiet
Title Act by ten years, and Carlson v. United States,
208 Ct. Cl. 1022, 1023 (1976), commenting that Carlson
established the vitality of Malone in a post-1972 setting);
cf. Del-Rio Drilling Programs, Inc. v. United States, 146
F.3d 1358, 1365 (Fed. Cir. 1998) (“[I]t is frequently the
case that the takings claim will arise from action by a
federal agency that is based on the agency’s view that
the private party does not enjoy the particular property
right it claims.”). The alleged taking in this case comports
with the type of non-possessory physical taking found in
Yuba Goldfields and Bourgeois. Here, the government has
not physically occupied plaintiffs’ property, other than to
post FWS refuge signs along the coastal zone. Rather,
the government has made a claim of ownership to part of
plaintiff’s property, and it has communicated that claim

115a
Appendix B
to prospective purchasers of plaintiffs’ land, which actions
plaintiffs claim have prevented them from exercising their
right to sell Parcel 4. Accordingly, plaintiffs have claimed
a physical taking of their property rights.
Analysis of a physical taking, as contrasted to a
regulatory taking, generally “involves the straightforward
application of per se rules.” Love Terminal, 97 Fed. Cl. at
372 (quoting Tahoe-Sierra Pres. Council, Inc. v. Tahoe
Reg’l Planning Agency, 535 U.S. 302, 322, 122 S. Ct.
1465, 152 L. Ed. 2d 517 (2002) (in turn quoting Penn Cent.
Transp. Co. v. City of New York, 438 U.S. 104, 124, 98 S.
Ct. 2646, 57 L. Ed. 2d 631 (1978))). In other words, once
a physical taking has been established, the government
must compensate the property owner “to the extent of
the occupation, without regard to whether the action
achieves an important public benefit or has only a minimal
economic impact on the owner.” Id. at 374 (quoting Loretto
v. Teleprompter Manhattan CATV Corp., 458 U.S. 419,
434-35, 102 S. Ct. 3164, 73 L. Ed. 2d 868 (1982)).
An additional consideration with regard to the nature
of the government’s action is whether the alleged taking
was permanent or temporary. Yuba Natural Res., Inc.
v. United States, 821 F.2d 638, 641 (Fed. Cir. 1987)
(examining whether the taking previously established
in Yuba Goldfields was permanent or temporary for
the purpose of determining just compensation). A
“permanent” taking of a landowner’s property rights
“does not necessarily mean forever, or anything like it.”
Otay Mesa Prop., L.P. v. United States, 670 F.3d 1358,
1367 (Fed. Cir. 2012) (quoting Hendler v. United States,

116a
Appendix B
952 F.2d 1364, 1376 (Fed. Cir. 1991)). Rather, the court
must consider whether the government intended for
the appropriation of a landowner’s property rights to be
perpetual, absent court intervention, including whether
the appropriation had ended by or at the time of the court’s
decision. Otay Mesa, 670 F.3d at 1365-67 (citing Speir v.
United States, 485 F.2d 643, 648, 202 Ct. Cl. 1020 (Ct.
Cl. 1973) (finding that a government-imposed easement
was a temporary taking because the government stated
at the outset that the easement would be temporary,
and because the easement had ended at the time of the
court’s decision)). To the same effect as Speiz Arkansas
Game & Fish, where the Supreme Court upheld a finding
of a temporary taking attributable to flowage during
the growing season, which had ceased at the time of
trial. See U.S. 133 S. Ct. at 518-21. A taking can also be
permanent regardless of whether one of the parties has
the ability readily to terminate the appropriation. Id. at
1367-68 (citing Loretto, 458 U.S. at 438-41 (finding that
the installation of a cable on the landowner’s roof was
a permanent taking, even though the landowner could
theoretically have avoided this requirement by ceasing
to rent the building to residential tenants)).
Here, plaintiffs assert that the government’s
interference with their ability to sell Parcel 4 has been
continuous since June 2006. E.g., Pls.’ Post-Trial Br. at
24 (claiming that “[t]he [g]overnment’s erroneous claims
that it owned a portion of Lot 4 have made the property
unsalable . . . requiring that [the plaintiffs] leave it
economically idle”). There is no indication from the record
of trial that, absent court intervention, the government

117a
Appendix B
intends to renounce its claim of ownership to a part of
plaintiffs’ property, or that it has done so at the time of
this writing. Consequently, the court is constrained to find
that the taking was permanent in nature, not temporary.
The alleged governmental actions in this case focus
on the 10.01-acre peninsula to the east of Parcel 4. The
government does not claim any part of Parcel 4 beyond the
peninsula, nor does the record show that any efforts to sell
Parcel 4 after 2006 were impaired by government claims
to property other than the peninsula. At the same time, the
extent of the government’s claim within the peninsula has
been inconsistent. For example, Mr. Beasley’s facsimile to
Ms. Motta on June 22, 2006 contained a graphic depicting
a small area within the peninsula (tract 1f, described as
“an old gun mount site”) and a strip along the coast (tract
1e), plus two additional graphics depicting a government
claim to the entire 10.01-acre peninsula. PX 288 at 4, 6-7.
Similarly, Ms. Rice’s notes from 1994 reflected a property
dispute with the Katzins over two distinct areas: a 10-acre
area, which she understood to be the entire peninsula, and
a 2.2-acre area that she understood to be a gun mount site.
DX 48 at 2; Tr. 1318:18-25 (Rice). These same two disputed
areas are mentioned in the 1994 FWS Annual Narrative
Report for the Culebra Wildlife Refuge. DX 49 at 62. Even
the government’s position during the pendency of this
case has been inconsistent, its having argued in its initial
motion to dismiss that the United States has claimed
ownership of the peninsula since the 1950s, see Def.’s Mot.
to Dismiss or, in the Alternative, for Summary Judgment
at 10-14, ECF No. 48, but focusing in its post-trial brief on
a claim to the gun mount site on the peninsula, see Def.’s

118a
Appendix B
Post-Trial Br. at 6-10, while not disavowing a claim to the
peninsula, see id. at 8. Because of this inconsistency, the
court must accept — as the plaintiffs and any prudent
buyer would have to do — that the relevant governmental
action is a claim of ownership, and thereby a permanent
taking, of the entire 10.01-acre peninsula.
2.

Whether the government’s actions appropriated
plaintiffs’ property rights.

After the nature of the alleged government action
has been determined, the further question for the court
becomes whether that action did in fact appropriate
plaintiffs’ property rights. The government’s claim of
ownership of part of the peninsula Parcel 4 adversely
affected plaintiffs’ ability to sell the property because
they could not offer unfettered title to potential buyers.
And, the “ability to sell, assign, transfer, or exclude”
is a “property right” within the meaning of the Fifth
Amendment. See Hearts Bluff Game Ranch, Inc. v. United
States, 669 F.3d 1326, 1330 (Fed. Cir. 2012). The degree
of impairment is at issue.
The government claims that no appropriation of
plaintiffs’ property exists because plaintiffs “failed to show
that the United States’ actions actually led Mr. Klaber or
any other buyer to decide not to buy their property.” Def.’s
Post-Trial Br. at 88. As evidence of this, the government
points to the fact that Mr. Klaber had apparently indicated
his desire to avoid purchasing the subject property as
early as June 5, 2006, weeks before Mr. Beasley sent
his facsimile claiming government ownership of part of

119a
Appendix B
the property. Id. at 91. The inferences necessary for this
contention, however, are not supported. Mr. Klaber was
still looking for means to complete the purchase on June
15, 2006, PX 445, a week before Mr. Beasley’s facsimile
asserting government ownership. And, evidence in the
record shows that after Mr. Beasley sent the facsimile of
June 22, 2006, the plaintiffs lost a prospective buyer in
Mr. Klaber, and have since been unable to sell the land.
Tr. 437:11-25 (Wagner). That evidence of unsalability has
not been contravened by the government.
The operative fact is that any sale of the property to
Mr. Klaber, or any other purchaser for that matter, after
Mr. Beasley’s communication on June 22, 2006 would have
had to be subject to the government’s ownership claims.
The circumstances surrounding subsequent negotiations
with potential purchasers show as much. For example,
although Dr. Orbay testified that the government’s
ownership claim was not a factor in his decision not
to purchase Parcel 4, Tr. 332:15-18 (Orbay), his e-mail
communications with Ms. Wagner indicate otherwise, e.g.,
PX 473 at 1 (stating that an FWS reserve on the property
“has ominous implications for any future development”).
As a consequence, the plaintiffs realistically were forced
into negotiations with FWS over exchange of other
property in an effort to release the government’s claim
on the 2.25-acre gun mount site, and the peninsula more
generally, in an ultimately unsuccessful attempt to
convince Dr. Orbay to complete the purchase. PX 492.
The proposed purchase of Parcel 4 by GEM similarly
accounted for “the contingent claim of [FWS] on yet to be
determined coordinates regarding the ownership of 2.25
acres of land.” PX 306.

120a
Appendix B
The only other proposed purchaser was Mr. Colón,
and although he stated to Ms. Wagner that he was not
concerned about FWS’s claim to 2.25 acres, Tr. 556:10
to 557:15 (Wagner), his proposal differed in significant
respects from those made by the other proposed
purchasers of Parcel 4. Mr. Colón evidently did not plan to
develop the property but rather was primarily interested
in “protect[ing] the view and privacy of his home,” which is
located just to the north of plaintiffs’ property. DX 356 at
2. In addition, his offer was to purchase only 30 cuerdas of
the property for $1.5 million, PX 498, which was less than
half of plaintiffs’ parcel, and the seaward half at that. In
fact, plaintiffs had included Mr. Colón as a potential buyer
in the listing agreement with Ms. Wagner, which suggests
they had already considered selling a segment of the
property to him and found his offer to be unsatisfactory.
DX 72. Accordingly, the government cannot persuasively
assert that the later offer from Mr. Colón is proof that the
government’s claim of ownership did not affect plaintiffs’
ability to sell Parcel 4.
In sum, the government’s claim of ownership of
part of Parcel 4 appropriated plaintiffs’ property rights
such that they were not able to sell the parcel free of the
government’s claims. Plaintiffs are due compensation for
a physical taking of the 10.01-acre peninsula claimed by
the government.

121a
Appendix B
C. Measurement of Just Compensation for Plaintiffs
1.

Value of the 10.01-acre peninsula taken by the
government.

When the government is found liable for a physical
taking, the court must determine the amount of “just
compensation” based on “precisely what the government
takes from a landowner.” Otay Mesa, 670 F.3d at 1368
(citing United States v. General Motors Corp., 323
U.S. 373, 382, 65 S. Ct. 357, 89 L. Ed. 311 (1945)). The
“computation of the compensation due” involves “an
approach which seeks with the aid of all relevant data
to find an amount representing value to any normally
situated owner or purchaser of the interests taken.”
Kimball Laundry Co. v. United States, 338 U.S. 1, 20,
69 S. Ct. 1434, 93 L. Ed. 1765 (1949). “The landowner is
entitled ‘to be put in as good a position pecuniarily as if
his proprerty had not been taken. He must be made whole
but is not entitled to more.’” Otay Mesa, 670 F.3d at 1368
(quoting Olson v. United States, 292 U.S. 246, 255, 54 S.
Ct. 704, 78 L. Ed. 1236 (1934)).
Here, plaintiffs assert that “just compensation” for
the government’s taking is equivalent to the full fair
market value of Parcel 4 in June 2006, calculated based
on comparable sales on Culebra and the nearby island of
Vieques. Pls.’ Post-Trial Br. at 28-30. Plaintiffs calculate
the fair market value of Parcel 4 as $6,450,000, or $91,000
per cuerda, based on the expert report of their appraiser,
Iván Canino, who determined that the “highest and best
use” of the property was “subdivision in[to] residential

122a
Appendix B
parcels of five cuerdas.” Id. at 30-32 (citing PX 419 at 21
(Summary Appraisal Report as of June 22, 2006)); see also
id. at 44 (noting that the “unit rate” for the property is
$91,000 per cuerda).
The government contrastingly asserts that, at most,
it should only be required to compensate plaintiffs for the
“10.31 cuer das (10.01 acres) shown on the 1947 Navy map.”
Def.’s Post-Trial Br. at 99. The government’s appraiser,
Jośe Dapena, concurred that the highest and best use of
the property was subdivision and sale as five-cuerda lots,
and also used comparable sales on Culebra and Vieques
to determine the property’s value as of June 2006. Id. at
102-05. However, Mr. Dapena concluded that the property
was worth only $36,000 per cuerda, or $376,000 for the
10.31-cuerda peninsula. Id. at 100.
Both parties have raised valid concerns regarding the
methodologies used by the two appraisers. For example,
the government asserts that Mr. Canino overvalued
plaintiffs’ property because certain adjustments he
made to the sale prices of comparable properties were
arbitrary, unsupported, or based on mathematical error.
Def.’s Post-Trial Br. at 109-13 (citing PX 419 at 3435). The government also asserts that three of the six
properties identified by Mr. Canino as “comparable sales”
were in fact not comparable because they were sales of
smaller adjacent properties grouped together to appear
like a larger property similar to Parcel 4, or they were
properties that fronted a sandy beach, unlike Parcel 4
which is bordered by mangroves at its ocean frontage.
Id. at 113-16. Conversely, plaintiffs claim that Mr. Dapena

123a
Appendix B
undervalued Parcel 4 because, using his proposed per
cuerda value of $36,000, the overall value of the property
($2,430,000) would be far less than the $4 million purchase
price negotiated with Mr. Klaber in 2006. Pls.’ Post-Trial
Reply Br. at 10, ECF No. 134. Plaintiffs also note that Mr.
Dapena failed to adjust the prices of comparable sales
based on significant features applicable to Parcel 4, such
as “waterfront access” and being located on the windward
side of the island, where there are fewer airborne insects
such as mosquitos. Id.
Although both appraisal reports provide context
for the value of Parcel 4, the court finds that the best
indicator of the property’s fair market value as of June
2006 was the contract with Mr. Klaber for $4 million.
See Foreign Trade Mgmt. Co. v. United States, 74 F.
Supp. 550, 110 Ct. Cl. 23, 31-32 (1947) (stating that just
compensation could be the price at which plaintiff had
contracted to sell the property at issue (copra), but not
adopting that price because, for war-time reasons apart
from the taking, plaintiff could not have consummated
the contract). Using this negotiated purchase price for a
67.5-cuerda property, the court determines a per-cuerda
value of $59,259.26. This per-cuerda value is further
supported by the fact that it is close to the mean value
($63,500) between the plaintiffs’ per-cuerda estimate
of $91,000 and the government’s per-cuerda estimate of
$36,000. Accordingly, the court finds that the appropriate
compensation for the government’s taking of the 10.01acre (10.31-cuerda) peninsula is $610,962.97. The court
recognizes that the peninsula is a valuable segment of
plaintiffs’ property because it is bordered on three sides

124a
Appendix B
by the ocean, contains a substantial hill with stunningly
beautiful views of the rest of the island, the ocean, and
other nearby islands, and consists of enough land that it
could be segregated into two separate developable parcels.
Even so, these desirable aspects of the peninsula as a
property only confirm the valuation determination set
out above.
2.

Interest.

To make the landowner “whole,” the government may
be required to not only compensate him or her for the
direct value of the property taken, but also pay interest
for the time between the taking and the date compensation
is paid. Kirby Forest Indus., Inc. v. United States, 467
U.S. 1, 10, 104 S. Ct. 2187, 81 L. Ed. 2d 1 (1984). Plaintiffs
also assert that they are entitled to compound interest
from the date of the taking, June 28, 2006, based on the
annual return of the Moody’s Long-Term Aaa Corporate
Bond Index (“Moody’s Aaa Index”). Id. at 44-45 (citing
Sears v. United States, 124 Fed. Cl. 730, 736-37) (2016)).
In adjudicating the appropriate interest rate, the court
follows the “prudent investor rule,” which seeks to
determine” how ‘a reasonably prudent person’ would have
invested the funds to produce a reasonable return while
maintaining safety of principal.’” Tulare Lake Basin
Water Storage Dist. v. United States, 61 Fed Cl. 624, 627
(2004) (quoting United States v. 429, 59 Acres of Land, 612
F.2d 459, 464-65 (9th Cir. 1980)), mot. for recons. granted
in part and denied in part on other grounds, 62 Fed. Cl.
684 (2004), rev’d and remanded on other grounds, 449
F.3d 1235 (Fed. Cir. 2006), clarified on reh’g, 465 F.3d

125a
Appendix B
1308 (Fed. Cir. 2006). For the reasons outlined in Sears,
including the fact that other applicable rates such as the
United States Treasury’s Separate Trading of Registered
Interest and Principal of Securities (“STRIPS”) five-year
and ten-year instruments “have been kept artificially
low since the financial crisis of 2008,” Sears, 124 Fed.
Cl. at 735, the court concurs that the Moody’s Aaa
Index, compounded quarterly, is a rate that a prudent
investor would objectively select in the market conditions
prevailing during the relevant time. Thus, it is the rate
most appropriate for setting the interest component of the
just compensation due to plaintiffs.
CONCLUSION
For the reasons stated, the court finds that the
plaintiffs have suffered a permanent physical taking
of their property interests for which just compensation
is due. The court awards the plaintiffs $610,962.97,
measured by the size of the property taken (10.31 cuerdas
or 10.01 acres) multiplied by a per-cuerda property value of
$59,259.26. The court also awards interest on that amount
at the rate of return reflected by the Moody’s Long-Term
Aaa Corporate Bond Index, compounded quarterly, from
June 22, 2006 to the date the judgment is actually paid.
Final judgment to this effect shall be issued under
RCFC 54(b) because there is no just reason for delay. The
clerk shall enter final judgment as specified.
In due course, plaintiffs may apply for an award of
attorneys’ fees and expenses under Section 304(c) of the

126a
Appendix B
Uniform Relocation Assistance Act, 42 U.S.C. § 4654(c).
Proceedings related to any such request for attorneys’
fees and costs shall be deferred until after any appellate
process has been concluded or, alternatively, after the
time for taking an appeal has expired.
It is so ORDERED.
/s/ Charles F. Lettow
Charles F. Lettow
Judge

127a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED MARCH 26, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2016-2636
RICHARD LEWIS KATZIN, ESTATE OF
ANNETTE KATZIN, ESTATE OF MARY BETH
KATZIN-SIMON, ROSEMARIE KJELDSEN,
Plaintiffs-Appellees,
v.
UNITED STATES,
Defendant-Appellant.
Appeal from the United States Court of Federal
Claims in No. 1:12-cv-00384-CFL, Judge Charles F.
Lettow.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before Prost, Chief Judge, Newman, Lourie, Linn*,
Dyk, Moore, O’M alley, Reyna, Wallach, Taranto,
Chen, Hughes, and Stoll, Circuit Judges.
* Circuit Judge Linn participated only in the decision on the
petition for panel rehearing.

128a
Appendix C
Newman, Circuit Judge, dissents without opinion.
Per Curiam.
ORDER
Appellees Richard Lewis Katzin, Estate of Annette
Katzin, Estate of Mary Beth Katzin-Simon and Rosemarie
Kjeldsen filed a combined petition for panel rehearing and
rehearing en banc. A response to the petition was invited
by the court and filed by Appellant United States. The petition was referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on April 2, 2019.
For the Court
March 26, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

